<html>
<title> - NOMINATIONS OF ROGER ROMULUS MARTELLA JR., BISHOP WILLIAM H. GRAVES, AND ALEX BEEHLER</title>
<body><pre>[Senate Hearing 109-1080]
[From the U.S. Government Printing Office]





                                                       S. Hrg. 109-1080

 NOMINATIONS OF ROGER ROMULUS MARTELLA JR., BISHOP WILLIAM H. GRAVES, 
                                  AND 
                              ALEX BEEHLER

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           September 13, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
47-641 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           September 13, 2006
                           OPENING STATEMENTS

Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     3
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................    17
Boxer, Hon. Barbara, U.S. Senator from the State of California...     9
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     2
Lautenberg, Hon. Frank R., U.S.  Senator from the State of New 
  Jersey, prepared statement.....................................    18
Lieberman, Hon. Joseph, U.S.  Senator from the State of 
  Connecticut, prepared statement................................    18
Obama, Hon. Barack, U.S. Senator from the State of Illinois......    15

                               WITNESSES

Beehler, Alex, Nominee for Inspector General of the Environmental 
  Protection Agency..............................................     8
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Boxer............................................    32
        Senator Inhofe...........................................    27
        Senator Jeffords.........................................    31
        Senator Lautenberg.......................................    31
        Senator Lieberman........................................    30
Graves, Bishop William H., Nominee for Member of the Board of 
  Directors of the Tennessee Valley Authority....................     7
    Prepared statement...........................................    24
     Response to an additional question from Senator Jeffords....    25
Martella, Roger Romulus, Jr., Nominee for Assistant 
  Administrator, Office of the General Counsel of the 
  Environmental Protection Agency................................     5
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Inhofe...........................................    20
        Senator Jeffords.........................................    20
        Senator Lautenberg.......................................    24
        Senator Obama............................................    22

 
 NOMINATIONS OF ROGER ROMULUS MARTELLA JR., BISHOP WILLIAM H. GRAVES, 
                            AND ALEX BEEHLER

                              ----------                              


                     Wednesday, September 13, 2006

                                        U.S. Senate
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:15 
a.m. in room 406, Dirksen Senate Office Building, Hon. James M. 
Inhofe (chairman of the committee) presiding.
    Present: Senators Inhofe, Jeffords, Boxer, Carper, Obama, 
Alexander.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. We will now convene the hearing of the 
nominees. We are going to hear from the three nominees this 
morning. First will be Roger Martella, who has been nominated 
to be the EPA General Counsel. Mr. Martella currently serves as 
Principal Deputy General Counsel of the EPA. Prior to joining 
the EPA he worked at the Department of Justice, Environment and 
Natural Resource Division.
    We will also hear from Alex Beehler, who has been nominated 
to be the EPA Inspector General. Mr. Beehler is currently with 
the Department of Defense serving as the Assistant Deputy under 
Secretary of Defense for Environment, Safety, and Occupational 
Health. He was also a trial attorney with the Department of 
Justice for ten years. Let me just say that Mr. Beehler is very 
qualified for this position, and I look forward to having an 
Inspector General that will carry out his duties without 
political bias.
    Last but certainly not least we will hear from William 
Graves, who has been nominated to be a member of the board of 
directors of the Tennessee Valley Authority. He is the 42nd 
Bishop of the Christian Methodist Episcopal Church. Bishop 
Graves serves as vice chairman of the Board of Commissioners of 
Memphis Light and Gas and Water, TVA's largest customer. Bishop 
Graves is nominated to fill the 9th and final slot on the newly 
organized TVA Board. I look forward to hearing them.
    I understand that Senator Jeffords has an opening 
statement, and Senator Alexander, if you would like to come up 
here to be recognized, you will be after Senator Jeffords.
    [The prepared statement of Senator Inhofe follows:]

        Statement of Senator James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    We are going to hear from 3 nominees this morning. First will be 
Roger Martella, who has been nominated to be the EPA General Counsel. 
Mr. Martella currently serves as Principal Deputy General Counsel of 
the EPA. Prior to joining EPA, he worked for the Department of 
Justice's (DOJ's) Environment and Natural Resources Division for 7 
years, leaving as Principal Counsel for Complex Litigation. He has a 
substantial background as an environmental attorney and will make an 
excellent addition to EPA.
    We will then hear from Alex Beehler, who has been nominated to be 
the EPA Inspector General. Mr. Beehler is currently with the Department 
of Defense, serving as Assistant Deputy Under Secretary of Defense for 
Environment, Safety and Occupational Health. He was also a Trial 
Attorney with DOJ for ten years. Let me just say that Mr. Beehler is 
very qualified for this position, and I look forward to having an 
Inspector General that will a carry out his duties without political 
bias.
    Last, but certainly not lease, we will hear from William Graves, 
who has been nominated to be a Member of the Board of the Tennessee 
Valley Authority. He is the 42nd Bishop of the Christian Methodist 
Episcopal Church. Bishop Graves served as Vice-Chairman of the Board of 
Commissioners of Memphis Light Gas & Water, TVA's largest customer. 
Bishop Graves is nominated to fill the 9th and final slot on the newly 
reorganized TVA board.
    I look forward to hearing from each of you.

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman. I want to thank 
all of the nominees here this morning for their commitment to 
public service. Two of our nominees will face great challenges 
at the EPA.
    Mr. Martella, nominated for the position of General 
Counsel, you will be the primary legal advisor through the 
Administrator.
    I want to commend these individuals and wish them well. You 
will be responsible for evaluating every issue the Agency must 
tackle, and I hope your evaluation will always make the health 
and the safety of the public and the environment your top 
priority. You will play a political role in making sure that 
the EPA's legal decisions are based on the laws that Congress 
enacted.
    In recent years, many of the EPA's legal decisions have 
been highly questionable and have not survived court review. I 
hope you will address that issue before this Committee.
    Mr. Beehler, you have some big shoes to fill. Your 
predecessor, Niki Tinsley, performed a great service at the EPA 
and the citizens of this country. She epitomized what was 
envisioned when the Office of the Inspector General was created 
in 1978 by providing independent and impartial analysis. The 
Inspector General provides a great service to the public. You 
will be the eyes and the ears for the public within the Agency, 
and that responsibility is not to be taken lightly. You have 
been closely involved in some controversial proposals at the 
Department of Defense. I look forward to examining your record 
in that regard.
    Bishop Graves, if confirmed you will join several other new 
TVA Board members confirmed earlier this year. In my view, your 
main responsibility is to ensure that TVA continues to provide 
its core product, electric power, competitively, efficiently, 
and reliably. But I also feel that the TVA needs to set a 
standard of public responsibility in the areas of environmental 
and fiscal performance. The TVA should be a model for the 
country in the area of cleaner and carbon-free power 
generation.
    I look forward to hearing from all of you and learning how 
you will respond to these challenges if confirmed.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]

       Statement of Senator James M. Jeffords, U.S. Senator from 
                          the State of Vermont
    Thank you, Mr. Chairman, and I want to thank all of the nominees 
here this morning for their commitment to public service.
    Two of our nominees will face great challenges at the EPA.
    Mr. Martella, nominated for the position of General Counsel, you 
will be the primary legal advisor to the Administrator. You will be 
responsible for evaluating every issue the Agency must tackle. I hope 
your evaluation will always make the health and safety of the public 
and the environment your top priority.
    You play a critical role in making sure that the EPA's legal 
decisions are based on the laws that Congress has enacted. In recent 
years, many of the EPA's legal decisions have been highly questionable 
and have not survived court review. I hope you will address that issue 
before this committee.
    And Mr. Beehler, you have some big shoes to fill. Your predecessor, 
Nicki Tinsley, performed a great service to the EPA and the citizens of 
this country. She epitomized what was envisioned when the Office of the 
Inspector General was created in 1978, by providing independent and 
impartial analysis.
    The Inspector General provides a great service to the public. You 
will be the eyes and ears for the public within the Agency and that 
responsibility is not to be taken lightly. You have been closely 
involved in some controversial proposals at the Department of Defense. 
I look forward to examining your record in that regard.
    Mr. Graves, if confirmed, you will join several other new TVA Board 
Members confirmed earlier this year. In my view, your main 
responsibility is to ensure that the TVA continues to provide its core 
product--electric power--competitively, efficiently and reliably.
    But I also feel that the TVA needs to set a standard for public 
responsibility in the areas of environmental and fiscal performance. 
The TVA should be a model for the country in the area of cleaner and 
carbon-free power generation.
    I look forward to hearing from all of you and learning how you will 
respond to these challenges if confirmed.

    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Alexander, thank you for joining us.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. I thank you for 
your courtesy in allowing me to be a part of the Committee.
    It is my privilege to be here today to speak in support of 
one of Tennessee's most distinguished citizens who has been 
nominated by President Bush for the Board of the Tennessee 
Valley Authority. Bishop William Graves is from Memphis. He is 
well known in our State and in the entire mid-south region.
    First, he has plenty of experience in the job that he has 
been nominated to take, because over the last ten years he has 
been a member of the Board of Commissioners of the Memphis 
Light, Gas and Water Company, which is the Tennessee Valley 
Authority's largest customer. So if he should be confirmed, 
Bishop Graves would be one of two members of the TVA Board with 
experience with distributors of TVA's power.
    Secondly, as the Chairman said, Bishop Graves is the 42nd 
bishop of the Christian Methodist Episcopal Church. He was 
elected to that position in 1982. He served pastorates in 
Georgia, which is one of the States served by TVA, and Indiana 
and Wisconsin and California. He has represented the CME church 
in the World Methodist Conference on several occasions. He is 
the immediate past president of the board of directors of the 
National Congress of Black Churches, and currently presides 
over the First Episcopal District, with headquarters and 
residence in Memphis.
    Mr. Chairman, Bishop Graves' nomination by the President 
represents two important milestones. First, Bishop Graves will 
be the first Memphis citizen ever to serve on the Tennessee 
Valley Authority Board, and since Memphis is the largest 
customer of TVA's electricity, that is especially appropriate. 
Second, Bishop Graves will be the first African American member 
of the Tennessee Valley Authority Board. He is a distinguished 
citizen, and on behalf of Senator Frist and myself we welcome 
him.
    If I may just add to Senator Jeffords' comment, I too hope 
that the Tennessee Valley Authority with the new board--Mr. 
Chairman, you and Senator Jeffords can remember that we 
confirmed several of them just a while ago--they are off to a 
terrific beginning. They are a very good board. They are doing 
exactly what a modern governance structure of an $7 billion a 
year company ought to do. They are developing a strategic plan.
    TVA is becoming a national leader in the production of 
carbon-free energy by reopening a nuclear power plant, which is 
on time, on schedule. Nuclear power, of course, produces 70 
percent of our carbon-free energy in the country, and TVA as a 
Federal Agency is taking the lead in doing that, so I salute 
that, Mr. Chairman, and I applaud this nomination as I know all 
Tennesseeans do.
    [The prepared statement of Senator Alexander follows:]

        Statement of Senator Lamar Alexander, U.S. Senator from 
                         the State of Tennessee
    Mr. Chairman, members of the Environment and Public Works 
Committee, thank you for this opportunity to be here today to speak in 
support of the nomination of Bishop William Graves to serve as a 
Director on the Board of the Tennessee Valley Authority. I'm honored to 
be here today to introduce one of Tennessee's most distinguished 
citizens who have been nominated by President Bush for the board of the 
Tennessee Valley Authority. Bishop William Graves is from Memphis. He's 
well known in our state and in the entire mid-south region.
    First, he has plenty of experience in the job that he's been 
nominated to take, because over the last ten years, he's been a member 
of the board of commissioners of the Memphis Light Gas and Water 
company, which is the Tennessee Valley Authority's largest customer. If 
confirmed, Bishop Graves would be one of two members of the TVA Board 
with experience as distributors of TVA's power.
    William Graves is the 42nd Bishop of the Christian Methodist 
Episcopal Church. He was elected to this position at the 1982. He has 
served pastorates in Georgia--which is one of the states served by 
TVA--Indiana, Wisconsin, and California. He has represented the 
Christian Methodist Episcopal Church in the World Methodist Conference 
on several occasions. He is the immediate past president of the board 
of directors of the National Congress of Black Churches and currently 
presides over the First Episcopal District, with headquarters and 
residence in Memphis, Tennessee.
    Mr. Chairman, Bishop Graves' nomination by the President represents 
two important milestones. First, Bishop Graves will be the first 
Memphis citizen ever to serve on the Tennessee Valley Authority Board, 
and since Memphis is the largest customer of TVA's electricity, that's 
especially appropriate. And second, Bishop Graves will be the first 
African-American member of the Tennessee Valley Authority Board.
    He is a distinguished citizen, and on behalf of Senator Frist and 
myself, we welcome him.
    The new TVA Board is off to a terrific beginning. They're a very 
good board. They are doing exactly what a modern governance structure 
of a $7 billion-a-year company ought to do. They're developing a 
strategic plan. TVA is becoming a national leader in the production of 
carbon-free electricity by reopening a nuclear power plant. Nuclear 
power, of course, produces 70 percent of our carbon-free electricity in 
the country and TVA, as the Federal Agency, is taking the lead in doing 
that. So I salute that, Mr. Chairman, and I applaud this nomination, as 
I know all Tennesseans do.

    Senator Inhofe. Thank you, Senator Alexander, for that 
excellent statement.
    We will now hear from our witnesses. We will start with 
you, Mr. Martella. We would like to ask you to confine your 
opening statements to five minutes. Your entire statement will 
be made a part of the record.
    Mr. Martella.

STATEMENT OF ROGER ROMULUS MARTELLA, JR., NOMINEE FOR ASSISTANT 
      ADMINISTRATOR, OFFICE OF THE GENEARL COUNSEL OF THE 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Martella. Thank you, Mr. Chairman, Senator Jeffords, 
and members of the Committee. Thank you for providing me with 
this opportunity and the honor to appear before you today.
    At the outset, I respectfully would like to introduce my 
wife behind me, Ann, and my children, Eva Angelina and Santino. 
And, for the record, I would like to recognize our third child 
who is on the way and due in January.
    I am also joined by my parents behind my wife, Roger and 
Mary Ann Martella, who are small business owners, who continue 
to run their Italian corner bakery after some 30 years. Next to 
them are my in-laws, John and Gayl Worthington, who are retired 
public school teachers from Battle Creek, Michigan, and made 
the journey to be here today.
    Finally, Mr. Chairman, well behind me are a number of young 
men and women who are homeschool students from Virginia and 
also members of Boy Scouts and Girl Scouts, who are here both 
to show support to me and to observe this important Senate 
process of advice and consent on the President's nominations.
    Mr. Chairman, I feel an extraordinary honor at being asked 
by the President and the Administrator to lead EPA's attorneys 
in support of the Agency's mission to accelerate environmental 
protection while maintaining economic competitiveness. For 
almost a year, as the acting General Counsel and as the 
Principal Deputy General Counsel, I have had the good fortune 
to work shoulder to shoulder with the talented staff at what 
is, in effect, the Nation's strongest environmental law 
practice. The work that our office performs every day raises 
important and cutting edge issues critical to the Agency's 
overriding mission, and I am fortunate that I have members of 
the General Counsel staff, several of whom are here today to 
show support to me, behind me.
    If confirmed as General Counsel, I would bring to the post 
my perspective as an environmentalist, my attorney skills 
developed as counsel to both the Federal Government and the 
private sector on complex environmental issues, and the unique 
breadth of perspective of how our Federal decisions affect 
local Governments.
    First, I am a passionate advocate for the environment. As 
the father of a young and growing family, I think constantly 
about the ramifications of decisions on my children, their 
young friends, and all their future families, and believe our 
decisions today must give equal time to protecting their legacy 
tomorrow.
    At the same time, I also wish a strong and viable economy 
for my children. Environmental decisions should not be made 
without regard to their economic and social consequences and 
should be crafted to conserve our Nation's economic 
competitiveness while protecting the environment. When I return 
home to my parents' bakery and to a now struggling industrial 
town built by entrepreneurial immigrants, I reflect on the 
impact of our decisions on American small businesses, in 
particular. I feel strongly that good Government demands that 
we avoid doing harm to this backbone of our Nation's economy, 
while at the same time promoting the health of our environment. 
I have no doubt that these two goals can be mutually 
achievable.
    Second, as an attorney I am a passionate advocate for my 
clients, in this case EPA. During my seven years at the Justice 
Department I took pride in maintaining an unbroken record of 
successfully litigating all the cases I took to court, which 
largely defended important Agency decisions and regulations. 
But I am also proud that, where feasible, I sought to resolve 
many cases in a way that not only resulted in a win for the 
Government but also addressed the interests of all stakeholders 
to the dispute. Ironically, it frequently takes a lawyer to 
suggest to parties that litigation is not the best solution and 
to facilitate a negotiated compromise that supports the 
interests of all stakeholders to the fullest extent possible.
    My experience has taught me that solving a problem through 
consensus has the added benefit of strengthening long-term 
relationships and avoiding future disputes. At EPA, I have 
worked to expand the use of environmental conflict resolution 
tools to address complex environmental disputes across the 
Nation.
    Finally, as a citizen who, during almost my entire career 
has played an active role in civic service at a local level, I 
appreciate firsthand the importance of working together with 
local, State, and tribal Governments, as well as other 
stakeholders, to achieve environmental results. I am fortunate 
to have the opportunity to apply my skills at the local level, 
including as an elected member of the Warrenton, VA Town 
Council and formerly as a member of a committee that brought 
together farmers, utilities, and the Government to help 
preserve my county's agricultural heritage. I constantly 
reflect upon this local public service when I am at work at 
EPA. Having this local perspective reminds me of how decisions 
by the Federal Government have real and significant impacts on 
people in communities far flung from Washington.
    Thank you, Mr. Chairman and members of the Committee. I 
respectfully would request that my full statement be submitted 
as part of the record, and I would be happy to answer any 
questions you may have.
    Senator Inhofe. Thank you, Mr. Martella.
    Bishop Graves.

 STATEMENT OF BISHOP WILLIAM H. GRAVES, NOMINEE FOR MEMBER OF 
    THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

    Bishop Graves. Good morning. I am honored to be here today 
as one of President Bush's nominees to the Board of the 
Tennessee Valley Authority. I would like to thank Senator 
Frist, Senator Alexander, and my own Congressman, Harold Ford, 
Jr.
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today, sir, but may I also add 
I am scared.
    [Laughter.]
    Bishop Graves. May I present my wife, who joins me, Donna 
Graves, and one of our daughters, Mira, who is sitting behind 
me.
    Senator Inhofe. Which one is the wife and which one is the 
daughter?
    Bishop Graves. My wife, my daughter. I hope I am able to go 
back home after that, Mr. Chairman.
    I was born in Brownsville, TN, the eighth of nine children, 
in the depths of the Great Depression. My family moved to 
Detroit when I was young, but I frequently returned, visiting 
relatives and friends. After completion of high school, I 
returned for my college years at Lane College in Jackson, 
Tennessee.
    I understand what TVA has meant to the people of Tennessee 
Valley from the years of economic struggle to the present day. 
As a resident of the Tennessee Valley, I would consider it a 
great honor and humbling challenge to serve on the Board of 
TVA, if confirmed.
    My background as a pastor and as bishop of the Christian 
Methodist Episcopal Church gives me a profound appreciation for 
TVA's mission of service to the 8.6 million people in the 
Valley. It is a mission based on making life better, improving 
our communities, and supporting our families as they live and 
work in concert with God's natural world. It is a worthy 
mission, indeed, and I will use all of my faculties, my 
strength, and the power that is in me to consider the 
challenges facing TVA and make sound and careful 
determinations.
    Mr. Chairman, I would like to also tell you that I had the 
opportunity to hear about your concern during the last 
confirmation hearing about the proper financial management of 
agencies like TVA. I want to assure you that if I am confirmed 
I will work hard to make sure that the TVA Board and employees 
manage our resources wisely and ethically.
    Based on my work, my life experience, and my knowledge of 
TVA, I believe I can make a valuable contribution to the Board 
of the Tennessee Valley Authority if you choose to confirm me. 
Throughout my professional life I have worked with people from 
all walks of life. As a board member of Memphis Light, Gas and 
Water, TVA's largest single customer, I learned much about the 
challenges facing TVA as a power provider keeping pace with the 
exuberant growth of our region's economy.
    Thank you again for this opportunity. I look forward to 
answering any question you may have for me.
    Senator Inhofe. Thank you, Bishop Graves. I am very 
familiar with your hometown. My daughter received her Ph.D from 
Memphis State University, and I have had a lot of barbecue 
there.
    Mr. Beehler.

STATEMENT OF ALEX BEEHLER, NOMINEE FOR INSPECTOR GENERAL OF THE 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Beehler. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Jeffords, members of the Committee, thank you for providing me 
with the opportunity to appear before you today.
    I would like to recognize my wife, Stephanie Beehler, who 
is seated three to the left of me.
    It is a great honor and privilege to be here today as the 
nominee to be Inspector General of the Environmental Protection 
Agency. In my current and previous positions involving 
environmental law and policy, my vision has been to seek 
environmental improvement.
    If I am confirmed, I pledge to you that I will do 
everything in my power to work with the dedicated, expert staff 
in the Office of the Inspector General to provide the Agency, 
Congress, and the American people an independent, objective 
review of EPA programs. I will work to prevent and detect 
fraud, waste, and abuse, and to provide the leadership to 
promote effectiveness, efficiency, and economy in program 
administration. Each is an important component in assisting the 
Agency's mission of protecting human health and safeguarding 
the environment, and I pledge to work with the Committee and 
its staff in carrying out our shared goal of environmental 
protection and improvement.
    During my 28 years of professional experience in 
Washington, DC, I have had the privilege to spend 17 of those 
years engaged in environmental law enforcement and policy 
positions from several different perspectives. I have served as 
a special assistant to the Associate Administrator for Legal 
and Enforcement Counsel at EPA, as a Federal environmental 
prosecutor for the Department of Justice, as an environmental 
regulatory advisor to a major corporation, as the top 
environmental policy official at two non-profit organizations, 
and currently as a senior environmental official at the 
Department of Defense.
    These opportunities plus positions on the Senate Judiciary 
Committee and in private litigation practice have provided me 
with a wide range of legal, investigative, and Government 
experience that have prepared me to perform the critical role 
of helping protect human health and the environment as 
Inspector General of the EPA.
    While at the Department of Justice, I was lead attorney on 
many CERCLA cost recovery cases requiring the substantive 
review of financial and audit records. One case in particular, 
the Picillo Superfund Site in Rhode Island, involved the court 
appointment of a special master solely to address all 
accounting matters and the judicial rendering of one of the 
most comprehensive examinations of CERCLA cost recovery issues 
to date.
    My non-profit work afforded me the opportunity to devise 
and implement environmental policy strategies focused on 
environmental improvement, where substantive results were 
defined, measured, and emphasized.
    In my current capacity at the Department of Defense, I 
continue to stress results over process by pushing for putting 
facts on the table and collecting the best available data and 
science in a holistic, integrated manner for all of the 
Department's operations, from design to disposal.
    I have proactively pursued building trust with interested 
parties to encourage sharing of the issues and information 
leading to solutions and environmental improvement. If 
confirmed, I would continue the same truth-seeking approach as 
Inspector General, with independence and integrity. I would 
ferret out problems and target areas for improvement through 
proactively seeking knowledge from other internal EPA offices, 
from other Federal agencies and components, from State 
agencies, and from non-Government sources and entities. I would 
provide leadership through breadth of vision, while drawing 
upon the considerable expertise of staff for depth and 
execution.
    Throughout my career and life I have strived to use 
responsibilities entrusted in me to make things better. Through 
independent and measured thinking, sound judgment and common 
sense, respect for the rule of law with the highest ethical 
standards. My goal is to lead by example and learn from others. 
I hope to have that opportunity as EPA's Inspector General.
    Thank you, Mr. Chairman and members of the Committee. I ask 
that my entire written statement be made part of the record. I 
would be happy to answer any questions that you may have.
    Senator Inhofe. Thank you, Mr. Beehler. Of course, all 
statements will be made part of the record.
    We have two required questions or questions that have 
required answers I would like to ask each one of you and I 
would like to have you respond audibly for the record.
    Are you willing to appear at the request of any duly 
constituted committee of Congress as a witness?
    Mr. Martella. Yes, Mr. Chairman.
    Bishop Graves. Yes, sir.
    Mr. Beehler. Yes, Mr. Chairman.
    Senator Inhofe. All right. Secondly, do you know of any 
matters which you may or may not have thus far disclosed which 
might place you in any conflict of interest if you are 
confirmed for this position?
    Mr. Martella. No, Mr. Chairman.
    Bishop Graves. No, Mr. Chairman.
    Mr. Beehler. No, sir.
    Senator Inhofe. Thank you very much.
    It is my understanding that Senator Boxer would like to 
make an opening statement.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Well, since I missed that turn, I will be 
happy to wait until you finish your questions, and then if I 
could take five minutes for an opening and five minutes for 
questions that would be great.
    Senator Inhofe. That would be fine.
    Senator Boxer. Thank you.
    Senator Inhofe. That would be fine.
    First of all, Senator Alexander, since you are here, 
anything you'd like to comment on or ask of any of the 
witnesses, particularly Bishop Graves?
    Senator Alexander. That is a great courtesy, Mr. Chairman. 
I don't think so. Bishop Graves and I have had a chance to 
talk. I know him well, know his experience. As I mentioned, he 
will go on the TVA Board as the most experienced member in 
terms of having direct experience on a day-to-day basis with 
the distributor. My hope, Mr. Chairman, with this new Board, 
which is a diverse board from all across the region, is that 
they have a chance to spend a year or two looking carefully at 
TVA and developing a strategic plan, and then coming back to 
this Committee and other Members of the Congress who have 
jurisdiction and letting us know the direction that you go. So 
I thank you for your courtesy, but I think I will not have 
questions.
    Senator Inhofe. Thank you, Senator Alexander.
    Senator Jeffords. I have no questions.
    Senator Inhofe. All right.
    Mr. Martella, in my office we discussed this and we have 
had some hearings, as you know, in the last couple hearings 
over how the various regions vary from one another in terms of 
things that they are involved in, the roles they play. I would 
ask you what role this position, if confirmed, you would be 
able to do to help us, recognizing that there are some 
differences from region to region, but certainly not the 
differences that would justify the behavior of some of these 
regions relative to each other.
    Mr. Martella. Thank you, Mr. Chairman, for that question. 
As you know, I share your concern and I believe that ensuring 
national consistency with EPA headquarters and our ten regional 
offices should be a goal of the Agency. At the same time, you 
and I agree there needs to be some flexibility. Senator 
Murkowski and I have talked about flexibility involving 
situations in Alaska, for example.
    Even as Deputy General Counsel I have taken a proactive 
role in working towards national consistency with headquarters 
and our regional offices. For example, I have worked very 
proactively with high-level headquarters officials and high-
level regional officials towards developing a list of 
nationally significant projects and issues. The idea would be 
if an item is flagged as nationally significant there would be 
headquarters coordination to ensure that we were taking 
consistent positions across the Nation. I also rely Mr. 
Chairman, on my regional counsels in each of our ten regional 
offices to keep me informed and ensure that headquarters has a 
role in ensuring consistency in positions across the Nation.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Mr. Beehler, you and I also talked about this, the grants 
management and the problems. There has been criticism for the 
last ten years. And then, most recently, in the last three 
years we have been trying to set up a system where we have 
daylight and we know what types of grants are out there and who 
has access to them. What would be your role in grants 
management?
    Mr. Beehler. Thank you, Mr. Chairman, for the question.
    Grants management at EPA is one of the most important 
activities that the Agency does, consuming almost half of their 
annual budget. If I am confirmed, I certainly will make the 
careful review of grants management one of my top priorities 
and would work with you, Mr. Chairman, the other Senators on 
the Committee, and the respective staff to seek out any 
questions and concerns that you may have, either on specific 
grants or on the general grant management program, as well, and 
then take that back and give it careful review throughout the 
Office of Inspector General to make sure that the grants 
management program is the most effective and efficient it can 
be, given the resources at hand.
    Senator Inhofe. Yes. Thank you, Mr. Beehler.
    Bishop Graves, you know, we had a hearing and I think we 
had six nominees that were confirmed to the TVA on the 
restructuring of this board not too long ago, and it was called 
to attention in my State of Oklahoma we have what some people 
refer to as the Little TVA. It is called the Grand River Dam 
Authority. There has been a lot of ethical problems there, and 
so that made me most interested in the history of the TVA and 
some of the problems that were there, so I ask you the same 
question I asked the other six prior to their confirmation. 
What steps would you take to ensure that you don't slip back--
not you, individually, but the board does not slip back into 
some of the problems it had in the past?
    Bishop Graves. Would you repeat the question?
    Senator Inhofe. The ethical problems of the past of the 
board, what steps can you take to ensure that we don't revert 
back to some of those problems as a member of the board?
    Bishop Graves. Well, first thing I would do, Mr. Chairman 
is make sure that I understand the past and compare, and would 
use all my abilities to check out and to do whatever research 
and use my best judgment to keep and raise high ethical 
standards.
    Senator Inhofe. Yes. I have no doubt about that, and I have 
felt we concentrated most of the last hearing of those nominees 
up for confirmation to some of the problems of the past and how 
we can avoid those in the future, so I am very pleased, as is 
Senator Alexander, with this new formation and look forward to 
many years of relating with you.
    Senator Boxer.
    Senator Boxer. Thank you so much. I am hoping I can have 
ten minutes now, because----
    Senator Inhofe. You can have 10 minutes if you want 10 
minutes. Yes.
    Senator Boxer. Thank you. I do.
    Senator Inhofe. Of course.
    Senator Boxer. I do.
    First of all let me say to the Bishop and to Mr. Martella I 
will be supporting you and I think your nominations are most 
appropriate. I have some questions about Mr. Beehler, so the 
two of you can breathe a sigh of relief.
    I will make my comments.
    Mr. Chairman, I feel very strongly about the Office of the 
Inspector General in the various departments of Government. I 
mean, it is very clear to me that the Inspector General should 
be an advocate for the mission of the Agency and not come to 
the job with a record of really working in many ways to weaken 
environmental enforcement, so I want to talk about my concerns, 
Mr. Beehler, and of course give you an opportunity to respond, 
but I'm going to wait for the chairman.
    I was saying that to me an Inspector General who is someone 
that Members can rely on from both sides of the aisle to look 
at their work to ensure that the mission is being accomplished 
by the Agency in which they are assigned, and the object to me 
is to ensure that EPA, its employees, and actions remain free 
of waste, fraud, and abuse, any person nominated I believe must 
be impartial, must be independent, and I just look at Mr. 
Beehler has a very successful record in his life and I applaud 
that but I don't see it meshing with this job, so I'm going to 
talk to you about that.
    I know that you have been closely involved in efforts by 
the Department of Defense to obtain exemptions from 
environmental statutes, and what is disturbing to me is already 
in the law there is a broad exemption granted. If ever there is 
a problem with national security the DoD can come to us and can 
act, so there is no impediment, but yet still what we've seen 
lately is a DoD that keeps trying to win exemptions from 
specific environmental statutes. That is disturbing to me 
because, as Inspector General, you know, since you've done 
that, I just don't think--and maybe I'm wrong again--that you 
would have a deep-seated belief that these statutes should be 
defended.
    You were in the key DoD position when the Department 
delayed stronger standards for perchlorate, for 
trichloroethylene, if I've said it right. We know that those 
contaminations exist on hundreds of sites, of DoD sites. And 
you left the Department of Justice to work as director of 
environmental compliance at Koch Industries, which had recently 
paid record fines for environmental violations and was facing 
criminal environmental charges.
    While at Koch, you helped to steer money to organizations 
that routinely seek to weaken our environmental laws. So I just 
have a problem. I mean, you might be great in some other 
position, but I see in this particular job the need for a 
principled environmental steward, independent, impartial, and I 
just unfortunately don't see it. I see a nomination of an 
individual with close tie to the very industries that you will 
be charged to oversee. I think we need an independent EPA IG 
who will stand up to political pressures, give us the plain 
truth about EPA and environmental issues.
    So, with the time I have remaining, I would like to ask you 
about the issue of perchlorate, which is a very deep-seated 
issue in my State and in others. It is a widespread contaminant 
that could cause damage, mental and physical. It is especially 
lethal to pregnant women.
    On March 20, 2006, a California Federal court agreed with 
the Natural Resources Defense Council that the Department of 
Defense, the Office of Management and Budget, and the 
Environmental Protection Agency have improperly withheld a 
number of documents that describe perchlorate contamination 
health effects and cleanup methods and costs. For example, the 
court ruled that DoD had improperly withheld ``a draft 
memorandum concerning perchlorate treatment technologies for 
DoD facilities in California.''
    An Inspector General must be an advocate for openness, but 
not someone who supports keeping the public in the dark. The 
public has a right to know. I mean, that is the beauty of this 
greatest country in the world here. We let the public know. We 
don't lie to them. We don't hide things. And when we do, we are 
not advancing the cause of freedom or democracy. So I am very 
concerned, while at DoD did you advise or consent to withhold 
any information that the Federal Court recently ruled was 
improperly withheld from the public?
    Mr. Beehler. No, Senator, I did not.
    Senator Boxer. So you had nothing to do with what they did 
on the perchlorate issue?
    Mr. Beehler. Concerning the withholding of documents or 
providing documents?
    Senator Boxer. Well, what was your position on the cleanup 
of perchlorate?
    Mr. Beehler. Senator, my position when I came in, I helped 
establish the first program office that the Department of 
Defense had concerning emerging contaminants to help work in a 
cooperative fashion, in a very open fashion, with other Federal 
and State regulators to address such issues of concern as 
perchlorate, TCE, and the other chemicals that you mentioned. 
To date, my office and the services in response to this office 
and initiative have worked very closely with the State of 
California to set up a sampling protocol at over 1,000 sites 
where perchlorate may have been present to put a sampling 
priority for perchlorate at those sites and to implement it 
with the maximum amount of coordination, review - -
    Senator Boxer. Okay, so thank you. Do you disagree with the 
court's decision then to find against the Department of Defense 
that you didn't, in fact, do this, what you are saying you did? 
Do you think they were incorrect, the correct was wrong?
    Mr. Beehler. Senator, I am not in a legal position at the 
Department of Defense and I do not have general knowledge of 
the particulars of the court's decision.
    Senator Boxer. Okay. Did you ever agree to provide or 
directly provide or were you aware that people were providing 
third parties who advocate for DoD contractors with information 
on the perchlorate issue?
    Mr. Beehler. Would you repeat the question please?
    Senator Boxer. Sure. Did you ever agree to provide or 
directly provide third parties who advocate for DoD contractors 
with information? In other words, did you agree to share that 
information with third parties?
    Mr. Beehler. Concerning this lawsuit?
    Senator Boxer. Perchlorate, concerning perchlorate.
    Mr. Beehler. We certainly have shared any information that 
we have obtained from the data sampling efforts with the State 
regulators, and I believe that is public information.
    Senator Boxer. Okay, but not with third parties?
    Mr. Beehler. I really do not have knowledge one way or the 
other about that.
    Senator Boxer. Okay. I would like you to go back and----
    Mr. Beehler. Senator, I would be happy to take----
    Senator Boxer. Because I don't want to give you a question 
that you are--so if you could go back, because the court held 
that that is exactly what happened, that the public didn't get 
the information but yet the private contractors did get it. So 
if you could go back and let us know on that one.
    Mr. Beehler. I would be happy to, Senator.
    Senator Boxer. Thank you very much.
    [The requested information was not submitted in time for 
print.]
    Senator Boxer. TCE is an industrial cleaning agent that we 
know causes cancer and other health effects. TCE contaminates 
at least 323 Superfund sites. A 2003 DoD document notes the 
Department has 1,400 TCE contaminated sites across the country. 
In 2001, the EPA issued a draft risk assessment that found TCE 
can cause cancer, damage the human nervous and immune system, 
and children are especially vulnerable. In December, 2002, 
EPA's Science Board called their risk assessment ground-
breaking work, particularly in analyzing the risk to children. 
In 2006 the National Academy of Sciences concluded that 
evidence of carcinogenic risk and other health hazards from TCE 
has strengthened since 2001.
    The Los Angeles Times reports that the White House 
developed a working group which included DoD officials to fight 
EPA's efforts to increase protections against perchlorate, and 
this works State and business to fight the TCE risk assessment. 
Did you agree with the decision to have DoD continue to 
participate in this working group?
    Mr. Beehler. Senator, the only working group that I am 
aware of is one that is ongoing, working with EPA and other 
Federal agencies to seek out the best available science and 
actually have requested that the National Academy of Science 
provide such information.
    Senator Boxer. Okay. So did you participate in the working 
group?
    Mr. Beehler. No, Senator, I did not.
    Senator Boxer. So you were never part of it and you didn't 
know about it?
    Mr. Beehler. Well, Senator, as I've answered, the only 
group that I am aware of is the one that I have described. I am 
not aware of what the one that has been characterized in the 
news article.
    Senator Boxer. I'm sorry. Which one did you describe?
    Mr. Beehler. I described the one that is ongoing right now. 
It is at a staff level with several Federal agencies, including 
EPA. It is on an ongoing basis to look at TCE and seek out the 
best available science, and therefore has approached the 
National Academy of Sciences.
    Senator Boxer. Well, don't you think there has already been 
ground-breaking work on TCE? You are still looking for more 
science? I mean, there has been ground-breaking work on TCE, 
but you think there needs to be more science?
    Mr. Beehler. Well, in fact, Senator, during this time 
around 2002 EPA's own Assistant Administrator for Research and 
Development openly questioned the conclusions of some of the 
draft work conducted by----
    Senator Boxer. Okay. So the National Academy of Sciences in 
2006 concluded that evidence of carcinogenic risk and other 
hazardous from exposure from TCE strengthened since 2001, and 
you want more science?
    Mr. Beehler. Well, Senator, my understanding is it is a two 
step process, and TCE--the National Academy of Sciences is in 
the second phase of that.
    Senator Boxer. Okay. Well, it sounds like you are in the 
working group but you don't define it the same way the L.A. 
Times does, so I will write to you and see if we can get this 
better explained, because you are in a group that is looking 
for better science, and yet the scientists have already said 
that TCE is a problem. A USA Today article said, on DoD's 
efforts to stall regulations on perchlorate and TCE, quotes you 
as saying the military ``diving into the science is one small 
but appropriate way for DoD to be a responsible player in these 
debates.'' I would only just say, you know, I look at DoD in 
this case, I mean, as trying to challenge the science. I think 
you are saying you are diving into it when EPA made these 
landmark findings.
    I am troubled by it, Mr. Chairman, and I don't question Mr. 
Beehler's integrity as a human being at all or fault his 
career, but I just don't see how his career thus far gets him 
ready for this important task.
    I thank you.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Obama.

            OPENING STATEMENT OF HON. BARACK OBAMA, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, and to 
all who have been nominated I congratulate you for being in 
this position.
    I am going to just focus my questions to Mr. Martella, and 
I want to focus on a public health issue that is not of your 
making but you will not have line responsibility for and I am 
frustrated about, so don't take this personally, but I want to 
talk to you about blood poisoning among children.
    During my short time in the Senate, a major focus of my 
work in this Committee has been to improve our Government's 
efforts to protect children from lead poisoning. I notice you 
just passed some water backwards so, as I suspect, you've got a 
couple. One is really excited by this hearing, by the way.
    Mr. Martella. That is a good thing.
    Senator Obama. Yes, exactly. I've got two children about 
the same age, so I think you will share with me the concern 
about this issue.
    The CDC estimates that 400,000 children under the age of 
five have elevated levels of lead in their blood. The 
consequences of this poison are all too well understood: 
learning disabilities, speech delays, hyperactivity, seizures. 
The majority of the research indicates that the damage, once 
done, is irreversible. My home State of Illinois has the 
unfortunate distinction of having the highest number of lead 
poisoning children in the Nation.
    The source of most child lead poisoning is no mystery; it 
is the lead paint in old houses. A number of my colleagues and 
I have pressed the EPA in the past as to what is being done to 
protect against poisoning by lead and paint. Last year, I put a 
hold on an EPA nomination and even threatened EPA funding in 
order to get some action by the Agency in this regard. As a 
result, EPA issued a draft rule last December to address lead 
removal during home renovation and repairs. That was progress. 
That was a good start. I have been disturbed to hear from 
outside groups, however, that this rule may not be finalized 
until December of 2007.
    Now, I know obviously you are relatively new to EPA. That 
is why I said don't take this personally. But part of your job, 
I think, is to understand sort of the statutory mandates that 
the EPA has and to develop this rule that, by the way, 
originally was enacted in 1992. It is now a decade later, so we 
have been waiting 14 years for these rules, which is, frankly, 
ridiculous. So recently Senator Boxer, Congressman Waxman, and 
I wrote two letters to Administrator Johnson asking a very 
simple question: when will this rule be finalized? We have not 
yet received an answer to our question and I just think the 
delay is unacceptable.
    You are being nominated for General Counsel of the EPA. You 
will be in charge of complying with statutory mandates. I have 
no doubt that you will want to do a good job. I've got to just 
as you a very simple question: when is the lead renovation rule 
to be finalized?
    Mr. Martella. Senator Obama, I appreciate your question. I 
understand your concerns, as you recognize with my own young 
and growing family, and I will also share with you something, 
which is that we have made the decision to live in a house 
built in the 1920s.
    Senator Obama. So you've got a personal concern.
    Mr. Martella. We have a very personal concern.
    Senator Obama. Keep them away from the paint chips.
    Mr. Martella. And we do. We take very strong precautions. 
So this is an issue that is also something that I acutely want 
to focus on if confirmed as General Counsel, and I appreciate 
the fact you recognize that the specific concerns you raise are 
not something I have had a role in.
    But what I can tell you is that if I am confirmed as 
General Counsel my role will be to work and put forward all the 
legal resources we have at our disposal to help the program 
finalize this rule and finalize protections against lead and do 
what I can from the Office of General Counsel and the legal 
issues to support the Agency's efforts to address this very 
serious issue.
    Senator Obama. That is the response I wanted to hear, and I 
appreciate that. I am going to take you at your word that you 
are going to work diligently on this, and I just want to make 
clear my attitude that waiting for more than another year is 
unacceptable. From my perspective, this has been dragging on 
for 14 years. It is time to just go ahead and get this done.
    And so my office is going to be working diligently, and I 
would actually like, in the interim between this hearing and 
your confirmation, for you to take the initiative to get more 
answers from your colleagues who are currently working on these 
rules and get back to my office to find out how soon these 
actual rules are going to be released. If you already are 
knowledgeable about that, then I would like you to tell me 
either in--it sounds like at this point you are not exactly 
sure what the status is. Am I correct about that?
    Mr. Martella. Senator, I'm not sure of the status of the 
rules. I do understand, I believe, our program office, which 
has immediate control over the rules, is meeting with your 
staff in the near future.
    Senator Obama. Okay.
    Mr. Martella. But I will follow up on your request and go 
back and try to get more information.
    Senator Obama. Yes. I just think you are here in front of 
me now. I expect to support your confirmation, but prior to the 
actual vote taking place I would like to get a sense that you 
are following up on this issue.
    Mr. Martella. Thank you.
    Senator Obama. All right.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Obama.
    I thank all of our nominees for taking the time to be here 
today. We look forward to your service. We will be having our 
confirmation before too long.
    We are adjourned.
    [Whereupon, at 11:03 p.m., the committee was adjourned.]
          Statement of Senator Max Baucus, U.S. Senator from 
                          the State of Montana
    Mr. Chairman, thank you for calling this business meeting to 
consider several important pieces of legislation and nominations. I 
congratulate all of the nominees--Mr. Martella, Mr. Graves, and Mr. 
Beehler. Thank your for your willingness to serve.
    Many issues face us today. But I would like to focus on Mr. 
Beehler's nomination to be the Inspector General at the EPA and the 
bipartisan Good Samaritan legislation before us.
    Mr. Beehler, countless times I have sat at this dais and told 
stories about Libby, Montana. I've told the Story of Les Skramstad, the 
miner in Libby. When the news of the contamination in Libby broke, Les 
told me that he would be watching me to make sure that I kept my 
promises to help the community. I consider Les my good friend. It broke 
my heart to hear just the other day that he had to be hospitalized due 
to his asbestos related illnesses.
    I've told the story of Mel and Leehra (L-E-E-R-A) Parker. Mel and 
Leehra had to abandon their tree nursery on the banks of the Kootenai 
River, because their property was so contaminated. Only weeks ago, the 
Parkers found more asbestos on their property in an area that was 
supposed to have been remediated.
    Mr. Beehler, the story I would very much like to tell one day is 
the story of EPA getting the job in Libby done right. That is why last 
month in a letter to the Office of the Inspector General, I requested a 
review of EPA's work in Libby. I want to make sure that the EPA has the 
necessary data to develop a baseline risk assessment and exposure 
criteria for tremolite asbestos. Mr. Beehler, the town of Libby does 
not need a rubber stamp. They need an advocate who will examine EPA's 
work with an objective eye to make sure that this tragedy is not 
prolonged.
    Mr. Chairman, I'd also like to take a moment to comment on the Good 
Samaritan legislation before us. I'd like to try to allay some of the 
concerns that I've heard about this bill. Let me state what this bill 
is not. It's not a substitute for the Superfund program. In fact this 
legislation prohibits issuing Good Samaritan permits to remediate sites 
on the Superfund National Priorities List.
    This bill is also not a loophole to protect polluters. Any person 
who had a role in the creation of the pollution is not eligible for a 
permit. If a person is liable under any Federal, State, tribal, or 
local law for the remediation of the site, then that person is not 
eligible for a Good Samaritan permit.
    Neither is this bill a re-mining bill. A Good Samaritan could 
reprocess tailings and ``previously mined ores and minerals that 
directly contribute to the contamination'' to capture any value, but 
this must be incidental and secondary to the primary purpose of 
remediating a historic and abandoned mine site.
    This bill is an attempt to work together to help clean up the 
thousands of abandoned mines throughout the West. The scope of the 
problem is staggering. In Montana alone there are more than 5,000 
abandoned hard rock mines.
    This legislation alone will not solve this problem. But it is an 
important tool that will give Good Samaritans the liability protections 
that they need to encourage them to undertake these cleanups. In 
exchange for these liability protections, any potential Good Samaritan 
must meet rigorous standards to make sure that the cleanups are done 
right. Any project must improve the environment to a significant degree 
and meet applicable water quality standards. The bill also includes a 
public hearing and comment process. Finally, EPA and the relevant state 
or Indian tribe must concur with the issuance of, and sign, the permit. 
If local rules or ordinances are implicated by the permit, then local 
authorities must also concur with, and sign, the permit. The bill also 
includes a provision sunsetting the Good Samaritan program after 10 
years. This is a good bill protective of human health and the 
environment.
    I'm proud to have worked together with Senators Inhofe, Allard, and 
Salazar to craft a bill that both industry and Trout Unlimited have 
endorsed. Mr. Chairman, this bill will not solve the problem of 
abandoned mines. But it will help. I urge my Colleagues to support it.

                              ----------                              


      Statement of Senator Frank R. Lautenberg, U.S. Senator from 
                        the State of New Jersey

    Mr. Chairman, thank you for calling today's hearing.
    Today we'll hear testimony from three nominees, two for 
positions at the Environmental Protection Agency (EPA) and one 
for the Tennessee Valley Authority (TVA). The EPA positions for 
which these nominees are being considered are central to how 
the Agency functions. The General Counsel provides legal 
guidance, while the Inspector General serves as both auditor 
and watchdog.
    As we consider nominees to fill these positions, I believe 
we need to look at more than just their paper qualifications or 
someone's expertise in a courtroom. We need nominees who 
understand that communities across the country face 
environmental problems that pose threats to the health, or even 
survival, of people and wildlife.
    I think most people would agree that the quality of the air 
they breathe is critical to their quality of life. As a quasi-
Federal Agency, the TVA is exempt from parts of the Clean Air 
Act. But that doesn't mean TVA should not work with the EPA to 
reduce smog and carbon emissions.
    I look forward to hearing Mr. Graves' plans for the future 
of the TVA, particularly his plans for protecting the 
environment and conserving energy at TVA.
    Mr. Chairman, thank you again for calling today's hearing.
                              ----------                              


         Statement of Hon. Joseph Lieberman, U.S. Senator from 
                        the State of Connecticut

    Thank you, Mr. Chairman. I would like to speak briefly 
about the nomination of Mr. Alex Beehler to the post of 
inspector general at the Environmental Protection Agency.
    According to the Inspector General Act, one of the duties 
of EPA's inspector general is to keep the Agency's 
administrator and the Congress fully informed of any serious 
deficiencies in EPA's administration of the programs for which 
it is responsible. So that the inspector general might 
discharge that duty, the Act gives him tools that even this 
Committee often is denied in practice, namely, unimpeded access 
to all of the Agency's records as well as to EPA's 
administrator and other employees.
    The public and the Congress rely upon EPA's inspector 
general to employ these powerful tools, and to disclose any 
serious Agency shortcomings that they reveal. If he does not, 
then critical problems will remain under wraps, and EPA, the 
nation's primary protector of public health and the 
environment, will fail to exhibit the effectiveness that the 
American people deserve.
    In his current position as the head of the Defense 
Department's office for safety, occupational health, and the 
environment, Mr. Beehler has fought to win exemptions for the 
Department from Federal anti-pollution statutes, and he has 
participated in the Pentagon's effort to induce EPA to weaken 
and delay national health-based standards for the carcinogenic 
solvent, trichloroethylene. With Mr. Beehler's assistance, the 
Defense Department has enjoyed some success on these fronts.
    Under the current administration, some political appointees 
within EPA have supported, to varying degrees, the Pentagon's 
resistance to the public-health protections that EPA 
administers. I am concerned that if this collaboration gives 
rise to deficiencies in EPA's administration of those 
protections, Mr. Beehler might, owing to his recent 
professional background and institutional loyalties, be too 
slow as EPA inspector general to uncover and disclose the 
deficiencies. In other words, I am not sure I am comfortable 
taking a protagonist in recent bureaucratic battles against 
EPA's public-health programs and making him EPA's internal 
watchdog, particularly at a time when certain key program 
officials within EPA exhibit insufficient enthusiasm for the 
Agency's mission to protect public health and the environment.
    That said, I honestly hope that Mr. Beehler's responses to 
my questions and those of my colleagues on this Committee will 
alleviate my concerns. For Mr. Beehler's record reveals that he 
is an experienced, highly intelligent, and diligent lawyer. I 
believe that if he were to marshal those strengths toward the 
full and faithful execution of the duties set forth in the 
Inspector General Act, then Mr. Beehler would make a fine EPA 
inspector general.
    Thank you, Mr. Chairman.
                              ----------                              


    Statement of Roger Romulus Martella, JR., Nominee for Assistant 
 Administrator Office of the General Counsel Environmental Protection 
                                 Agency

    Mr. Chairman, Senator Jeffords, members of the Committee. 
Thank you for providing me with the opportunity and the honor 
to appear before you today. At the outset, I respectfully would 
like to introduce my wife, Ann, my children Eva Angelina and 
Santino, and for the record would like to recognize our third 
child who is on the way and due in January, name and gender yet 
to be determined. I am also joined by my parents, small 
business owners who continue to run their Italian corner bakery 
after some 30 years.
    Perhaps the best way to give you a sense of how humbled I 
am to be the President's nominee for the General Counsel of the 
Environmental Protection Agency is to share with you a short 
story from my senior year in college. Late in my final semester 
at Cornell University, I decided to attend law school with the 
ultimate goal of working as an environmental attorney for the 
Government. I remember very distinctly approaching a recruiter 
from one of the top environmental law schools, told her that my 
goal was to work at EPA, and asked whether the school place 
students at the Agency. I can still hear her response as clear 
as the instant she said this to me: EPA is so selective in who 
they hire, and hires so few people, that you need to have other 
goals.
    So, with that background in mind, I hope you can appreciate 
the extraordinary honor I feel at being asked by the President 
and the Administrator to lead EPA's attorneys in support of the 
Agency's mission to accelerate environmental protection, while 
maintaining economic competitiveness. For almost a year, as the 
Acting General Counsel and as the Principal Deputy General 
Counsel, I have had the good fortune to work shoulder to 
shoulder with this talented staff at what is, in effect, the 
nation's strongest environmental law practice. The work that 
our office performs every day raises important and cutting edge 
issues critical to the Agency's overriding mission. For 
example, in the past several months I have worked with our 
attorneys to defend key Agency positions on clean water before 
the Supreme Court, to assess the Agency's legal authorities in 
addressing the rapidly emerging field of nanotechnology, and to 
implement the Brownfields statute.
    If confirmed as General Counsel, I would bring to the post 
my perspective as an environmentalist, my attorney skills 
developed as counsel to both the Federal Government and the 
private sector on complex environmental issues, and a unique 
breadth of perspective of how our Federal decisions affect 
local Governments.
    First, I am a passionate advocate for the environment. As 
the father of a young and growing family, I think constantly 
about the ramifications of decisions on my children, their 
young friends, and all their future families and believe our 
decisions today must give equal time to protecting their legacy 
tomorrow. At the same time, I also wish a strong and viable 
economy for my children. Environmental decisions should not be 
made without regard to their economic and social consequences, 
and should be crafted to preserve our nation's economic 
competitiveness while protecting our environment. When I return 
home to my parent's bakery and to a now struggling industrial 
town built by entrepreneurial immigrants, I reflect on the 
impact of our decisions on American small businesses in 
particular. I feel strongly that good Government demands that 
we avoid doing harm to this backbone of our nation's economy 
while at the same time promoting the health of our environment. 
I have no doubt these two goals can be mutually achievable.
    Second, as an attorney I am a passionate advocate for my 
clients, in this case EPA. During my seven years at the Justice 
Department, I took pride in maintaining an unbroken record of 
successfully litigating all the cases I took to court, which 
largely defended important Agency decisions and regulations. In 
fact, senior managers created a special position for me 
Principal Counsel for Complex Litigation--to make the most use 
of my skills in handling and supervising a docket of natural 
resource cases among the Environment Division's most complex. 
But I also am proud that, where feasible, I sought to resolve 
many cases in a way that not only resulted in a win for the 
Government, but addressed the interests of all stakeholders to 
the dispute. Ironically, it frequently takes a lawyer to 
suggest to parties that litigation is not the best solution and 
to facilitate a negotiated compromise that supports the 
interests of all stakeholders to the fullest extent possible. 
My experience has taught me that solving a problem through 
consensus has the added benefit of strengthening long-term 
relationships and avoiding future disputes. At EPA, I have 
worked to expand the use of environmental conflict resolution 
tools to address complex environmental disputes across the 
nation.
    Finally, as a citizen who during almost my entire career 
has played an active role in civic service at a local level, I 
appreciate firsthand the importance of working together with 
local, State, and tribal Governments as well as other 
stakeholders to achieve environmental results. My breadth of 
perspective includes public service to the Town of Warrenton 
and Fauquier County, beautiful and environmentally sound 
communities in the Virginia Piedmont. I am fortunate to have 
the opportunity to apply my skills at the local level, 
including as an elected member of the Warrenton Town Council 
and formerly as a member of a committee that brought together 
farmers, utilities, and Government to help preserve the 
County's agricultural heritage. I constantly reflect upon this 
local public service when I am at work at EPA. Having this 
local perspective reminds me of how decisions by the Federal 
Government have real and significant impacts on people in 
communities far flung from Washington.
    Thank you, Mr. Chairman and members of the committee. I 
would be happy to answer any questions you may have.
                                ------                                


   Response by Roger Romulus Martella Jr. to an Additional Question 
                          from Senator Inhofe

    Question 1. With only one political official governing, on 
average, 1,000 career staff in each region, I have concerns 
that bureaucrats--rather than elected officials--are making 
significant policy decisions. As EPA General Counsel, what 
would you do to ensure that policies set by the Administration, 
are in effect and consistent in the regions?
    Response. As I referenced in my oral testimony, I believe 
that ensuring national consistency, while accommodating some 
flexibility where appropriate, is an important goal. During my 
tenure at EPA as Deputy General Counsel and as Acting General 
Counsel, I have taken proactive steps to further this goal. For 
example, I have played a lead role in working with headquarters 
and regional offices toward developing a definition of 
``national significance'' that would flag issues for 
headquarters review to ensure consistency of positions across 
the Agency. I also work closely with OGC's network of regional 
counsels and encourage open communication to identify issues 
among the regions that would benefit from headquarters 
coordination in order to ensure national consistency.
    If confirmed as General Counsel, I would continue to 
promote strong coordination and communication between 
headquarters and the 10 EPA regions to help achieve the goal of 
national consistency. At present, I hold a weekly telephone 
conference with senior OGC staff in Washington and with each 
regional office. The Office of General Counsel also holds a 
monthly call where legal developments are discussed to ensure 
consistent implementation across the Agency, and headquarters 
and regional senior staff meet in person twice a year to 
coordinate on legal developments and regional issues. Thus, if 
confirmed as General Counsel, I plan to take steps to ensure 
national consistency and will work to facilitate a strong flow 
of coordination and communication between the regions and 
headquarters to further this goal.
                                ------                                


          Responses by Roger Martella to Additional Questions 
                         from Senator Jeffords

    Question 1. In recent years, a number of EPA's rules have 
been overturned, with strongly worded court opinions that 
question EPA's legal interpretations of key environmental 
statutes, such as the Clean Air Act.
    Do you believe it is the General Counsel's duty to counsel 
against Agency action that the General Counsel believes is 
legally at odds with the statute and unlikely to survive court 
challenge? Would you be willing to clearly indicate to the 
Administrator that a rule should not go forward because of high 
legal risk?
    Response. I believe that one of the General Counsel's 
primary roles is, in consultation with the office's staff, to 
advise the Agency's decision makers on a range of options that 
are fairly supported by pertinent statutes, regulations and 
case law. As part of this analysis, I believe it is incumbent 
upon the General Counsel to provide an assessment of the 
strengths and weaknesses of each option under the pertinent 
statutes, regulations and case law, including an assessment of 
any litigation risk. I do not intend to shy away from 
communicating directly the varying legal risks associated with 
different options to decision makers. Thus, if the 
Administrator or other Agency decision maker were considering 
an action for which a legal argument could fairly be 
articulated under the applicable statutes, regulations and case 
law, but that I believed nonetheless bore a high legal risk, I 
would be fully candid about the litigation risk and the 
downside potential of pursuing such a position. However, I am 
mindful that these statutes give the Administrator and other 
decision makers the ultimate authority to decide how to 
implement their provisions in light of all relevant information 
before the Agency, including any legal risks that I would have 
identified.
    One of my primary goals, if confirmed as General Counsel, 
would be to work to further support implementation of Agency 
decisions. Thus, I would work closely with the staff in the 
General Counsel's Office and Regional Counsel's Offices to 
ensure that the Agency compiles strong administrative records, 
to develop solid legal frameworks for rules and decisions, and 
to provide support to and coordination with the Department of 
Justice in defending the Agency in any litigation.

    Question 2. In a brief filed recently by the EPA's Office 
of General Counsel before the U.S. Department of Labor 
Administrative Review Board, the Agency argued, contrary to 
significant legal precedent, that there has been no clear, 
unequivocal waiver of Federal sovereign immunity from 
whistleblower liability under the Clean Air Act, CERCLA, the 
Clean Water Act, the Safe Drinking Water Act and the Toxic 
Substances Control Act and thus that whistleblower claims must 
be dismissed. Do you intend to maintain that Federal workers 
may not pursue whistleblower claims under these statutes to 
report concerns such as the Administration's statutory 
violations, lax enforcement, or manipulations of data, any or 
all of which may result in threats to public health or the 
environment?
    Response. If confirmed as General Counsel, I would seek to 
ensure full and fair enforcement and implementation of all 
laws, including pertinent whistleblower provisions. I cannot, 
however, speculate on the specific position EPA will take in 
any hypothetical future litigation brought by a Federal 
employee under the whistleblower protection provisions of the 
environmental statutes. EPA's position will necessarily depend 
on the facts and circumstances of the case and the applicable 
laws. I would anticipate that I would also seek and respect the 
guidance of the United States Department of Justice, including 
opinions issued by the Department of Justice's Office of Legal 
Counsel concerning waivers of Federal sovereign immunity.
    In the case to which you refer, EPA submitted arguments to 
the United States Department of Labor Administrative Review 
Board concerning waiver of Federal sovereign immunity from 
liability under the whistleblower provisions of various 
environmental statutes. EPA submitted these arguments in direct 
response to a specific invitation by the Administrative Review 
Board to EPA and other parties to address the issue in a case 
that was pending before the Administrative Review Board. The 
Administrative Review Board invited views on this issue based 
on one of its recent decisions holding that there was no waiver 
of State sovereign immunity under various environmental 
whistleblower provisions. The employee has appealed the 
Administrative Review Board's decision to the Eleventh Circuit 
Court of Appeals. The Eleventh Circuit has recently asked the 
parties to address a threshold jurisdictional question relating 
to the procedure for seeking review of Department of Labor 
decisions.

    Question 3. Over the past several years, EPA has had to 
grant a number of petitions for reconsideration of 
controversial rules. Some of these rules were subject to court 
deadlines because EPA did not meet statutory deadlines. Some 
allege that EPA is knowingly issuing defective rules and then 
using its own powers of reconsideration to give itself more 
time. Do you believe such use of petitions for reconsideration 
is appropriate? What will you do to ensure that when a rule is 
issued pursuant to a court ordered deadline, it is at least 
good enough that EPA itself does not need to recall it?
    Response. When EPA issues a final rule, it seeks to account 
for all of the relevant information, including comments 
received during the public comment period and information 
obtained during the course of the rulemaking. In some 
instances, however, new and relevant information comes to light 
after the close of the public comment period, and the 
Administrator decides on a course of action that rests on that 
new information. In those instances, parties interested in the 
rule may seek reconsideration on the basis they did not have 
the opportunity to comment on the new information. The Agency 
may grant reconsideration where appropriate to ensure that the 
public has a full and fair opportunity to comment on such 
information.
    The final rules that the Administrator issues reflect an 
appropriate consideration of the pertinent information and 
rationales available to the Agency at the time the 
Administrator issues the final rule. The Agency utilizes the 
reconsideration process in appropriate circumstances to ensure 
that the public has an adequate opportunity to react to 
information on which it was not practicable to provide comment 
in advance of the final rule. The Clean Air Act, for example, 
explicitly provides the opportunity for a reconsideration 
proceeding to provide further ventilation of the new 
information.

    Question 4. EPA has been on the cutting edge of many 
important legal issues that are relevant to the Federal 
Government as a whole. One such issue is the constitutional 
requirement that a person have ``standing'' to have his or her 
case heard by a Federal court. Depending on how the standing 
requirement is interpreted, the ability of citizens to 
challenge Federal Agency actions--particularly EPA actions--
could be greatly curtailed. What are your views on the 
significance of this issue and how the doctrine of standing is 
evolving?
    Response. I agree that standing is a significant issue to 
be considered in litigation. As a judicial law clerk on the 
Tenth Circuit Court of Appeals, I came to appreciate first hand 
that parties and the court both have obligations to consider 
standing as a constitutional requirement that is a necessary 
prerequisite to jurisdiction and justifiability.
    If confirmed as General Counsel, I would work closely with 
the Justice Department to evaluate whether parties in 
litigation have met the constitutional and prudential 
requirements for standing in a given action. My analysis would 
be informed by Article III of the Constitution and 
interpretations by the Supreme Court and other Federal courts. 
I anticipate that part of the analysis would include analyzing 
the complaint and pleadings to assess whether a plaintiff has 
established the standing requirements. At the same time, in 
response to your question, my evaluation of standing would not 
be driven by a sense of curtailing parties from bringing 
legitimate claims, but rather would be governed by established 
case law and principles relevant to the standing determination.
                                ------                                


    Responses by Roger Romulus Martella Jr. to Additional Questions 
                           from Senator Obama

    Question 1. Due to growing concerns over child lead 
poisoning caused by lead in the paint of older homes, the EPA 
was mandated by statute in 1992 to issue a rule for home 
renovation and remodeling. Senator Boxer, Congressman Waxman, 
and I have written twice to the EPA, requesting additional 
information about the timing for finalizing the rule. The 
Agency's reply, while timely, did not suffice to answer our 
questions, and I will therefore repeat them here.
    Is EPA considering conducting additional studies in support 
of this rulemaking? If EPA plans to conduct additional studies, 
please detail each such proposed study, including the timing 
and cost. What portions of the rulemaking will the additional 
studies support?
    Response. As I testified during the hearing, I am acutely 
sensitive to issues regarding lead. My role as General Counsel, 
if confirmed, would be to ensure that OGC provides adequate 
legal resources to help finalize this rule and finalize 
protections against lead.
    It is my understanding that staff from the Office of 
Pollution Prevention Pesticides and Toxic Substances (OPPTS) 
met with your staff and staff from Senator Boxer and 
Representative Waxman's office on Thursday, September 14, 2006 
to discuss your questions regarding this proposed rulemaking 
(Lead Renovation Repair and Painting Program). I am told that 
it was a positive meeting and am appreciative of your 
willingness to sit down with EPA to discuss this issue further. 
I am told that on August 1, the Agency also provided a written 
response to your letter of July 24, 2006.
    As stated in the August 1 letter and consistent with the 
staff discussion of September 14, public comments on the 
proposed rule raised many important issues regarding the 
required work practices, cleaning verification, and activities 
that are prohibited during abatement but permitted by the 
proposed rule. Consistent with our recent written and verbal 
communications, the Agency is conducting a study to better 
characterize dust lead levels generated during a range of 
renovation, repair and painting activities. EPA is conducting 
the study in parallel with other aspects of the rulemaking 
effort. The results of the study will provide important data, 
which will be available at a key point, to inform Agency 
decisions on how these issues will be addressed in the final 
rule.
    The objectives of the study include:

     Characterizing the effect of a range of renovation, 
repair and painting jobs that disturb lead-based paint on dust 
lead levels. Jobs will include practices that are prohibited 
under abatement regulations but permitted in the proposed rule;
     Characterizing the effect on dust lead levels of the use 
or non-use of plastic sheeting containment during interior and 
exterior jobs;
     Characterizing the differences in lead levels between 
surfaces cleaned with the proposed rule cleaning methods, and 
surfaces cleaned with baseline (broom and shop-vacuum) cleaning 
methods;
     Characterizing the amount of lead dust in adjacent rooms 
as a result of different renovation, repair and painting jobs, 
use or non-use of plastic sheeting containment and use or non-
use of proposed rule cleaning methods;
     Characterizing the accuracy of the cleaning verification 
method when used by workers in the range of renovation, repair 
and painting activities in the study.

    This study design underwent peer review last spring; data 
collection has started and will be completed in December 2006. 
EPA expects to receive the study results in January 2007. The 
estimated cost of the study is $1.2 million.
    I understand from my colleagues that EPA has committed to 
following up on last week's agreement to discuss the results of 
the study with you or your staff once the study is finalized. 
We anticipate that the timing should be in late January 2007. 
At that time, we would also be happy to discuss in more detail 
the comments that you provided in your May 24, 2006 letter to 
EPA Administrator Steve Johnson.

    Question 2. Are there equally or more protective 
methodologies for which EPA already has sufficient supporting 
data, but which the Agency did not propose in an attempt to 
minimize the costs of the rule to industry?
    Response. Consistent with our discussions with your staff, 
the Agency proposed or took comment on the range of 
methodologies that it is aware of for conducting renovation, 
repair and painting activities in a protective manner. However, 
in order to be effective in protecting children, a rule 
governing these activities must be practical to implement and 
understandable to homeowners and residents and to the 
predominantly small businesses that conduct renovation 
activities. In addition, EPA's goal in this rulemaking process 
is to develop an approach that will encourage homeowners to 
employ contractors who follow lead safe work practices. Thus, 
EPA believes that cost and practicability are relevant to the 
protectiveness of its proposed rule. EPA's goal for the 
proposed and final rules is to establish a comprehensive 
program that protects children and that can be effectively 
implemented. Any methodologies or technologies required by the 
final rule will be subject to this consideration.

    Question 3. What information does the Agency staff believe 
it needs in order to support a final rule that it did not need 
to write the proposed rule? Has every step been taken to ensure 
the data/information does not already exist?
    Response. As discussed with your staff last week, EPA has 
received a large number of substantive comments addressing 
virtually every aspect of the proposed rule. Many comments 
address the need for and efficacy of the required work 
practices and other issues that will be informed by the study 
of lead dust generation that is currently underway. EPA has 
evaluated the existing data and does not believe that 
equivalent data exist.

    Question 4. Has EPA met with officials from industry who 
urged the Agency to delay the rulemaking through additional 
studies or other actions? If so, please provide the dates and 
attendees at those meetings, and describe the requests made in 
such meetings.
    Response. As communicated to your staff on September 14, we 
had the opportunity to meet with various stakeholders, 
including industry representatives, as part of the rulemaking 
process. We were not asked by these officials to delay the 
rulemaking through additional studies.
    We were, however, asked instead to extend the comment 
period on the proposed rule. On March 27, 2006, during the 
public comment period on the proposed rule, EPA met with 
representatives of the National Association of Homebuilders 
(NAHB) at the Office of Management and Budget. At that meeting, 
and in a subsequent letter, NAHB requested a 90-day extension 
of the public comment period in order to have sufficient time 
to complete and submit to the Agency a study that NAHB planned 
to undertake. Other commenters also requested a 90-day 
extension of the comment period. EPA extended the comment 
period an additional 45 days.
    As further communicated to your staff on September 14, EPA 
has not and would not agree to additional studies or actions 
for the purpose of delaying a rulemaking.

    Question 5. When does EPA plan to complete the rulemaking?
    Response. EPA is committed to issuing a final rule as 
expeditiously as possible. As discussed in the meeting with 
your staff, EPA is currently analyzing a large number of 
significant comments on virtually every aspect of the proposed 
rule. The Agency is also determining what additional 
information-gathering and analysis may be needed to adequately 
respond to the comments and make informed and supportable 
decisions on how best to address commenters' issues in the 
final rule. EPA expects to complete the analysis of the 
comments soon and will then be in a better position to predict 
the time required for the Agency to develop a final rule. At 
that time, EPA will be happy to share with you our thinking on 
the potential timing of a final rule.
    As I indicated in my oral testimony, if confirmed as 
General Counsel, I will ensure that the Office of General 
Counsel provides full and adequate legal resources to support 
the Agency's efforts in finalizing the lead rule.
                                ------                                


   Response by Roger Romulus Martella Jr. to an Additional Question 
                        from Senator Lautenberg

    Question 1. You testified that environmental decisions 
should be crafted to preserve our nation's economic 
competitiveness as well as protecting our environment. However, 
in some instances, Congress has directed that health standards 
should be set without considering the cost of implementing the 
standards. If you are confirmed as General Counsel, how would 
you advise the Agency regarding statutes that prohibit 
consideration of costs in setting health standards?
    Response. If confirmed as General Counsel, one of my 
primary responsibilities would be to advise decision makers at 
EPA on the range of discretion and factors they may consider in 
the decision-making process. In offering such counsel, I will 
review applicable direction provided by Congress in relevant 
statutes. Frequently, such statutes provide decision makers 
with wide discretion to consider numerous relevant factors, 
including environmental, health, and economic ramifications of 
a decision. In other instances, Congress in certain statutes 
has chosen to limit the Agency's discretion to certain 
enumerated factors and criteria. I would anticipate that if 
confirmed I would examine each relevant statute in offering 
legal counsel to determine whether Congress intended to provide 
broader discretion in making a decision or whether Congress 
intended to limit the analysis to certain factors and preclude 
other factors, such as economic costs.
                              ----------                              


Statement of Bishop William H. Graves, Nominee for member of the Board 
             of Directors of the Tennessee Valley Authority

    Good morning. I am honored to be here today as one of 
President Bush's nominees to the Board of the Tennessee Valley 
Authority.
    I am very grateful to Tennessee's Senators, Majority Leader 
Bill Frist and Lamar Alexander, and to my Congressman, Harold 
Ford, Jr., for their support.
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today.
    I was born in Brownsville, Tennessee, the eighth of nine 
children, in the depths of the Great Depression. My family 
moved to Detroit, Michigan, when I was young, but I frequently 
return, visiting relatives and friends. After completion of 
high school, I returned for my college years at Lane College in 
Jackson, Tennessee.
    I understand what TVA has meant to the people of the 
Tennessee Valley from the years of economic struggle to the 
present day. As a resident of the Tennessee Valley, I would 
consider it a great honor and a humbling challenge, to serve on 
their Board.
    My background as a pastor and as Bishop of the Christian 
Methodist Episcopal Church gives me a profound appreciation for 
TVA's mission of service to the 8.6 million people of the 
Tennessee Valley.
    It is a mission based on making life better, improving our 
communities, and supporting our families as they live and work 
in concert with God's natural world.
    It is a worthy mission indeed, and I will use all my 
faculties, my strength, and the power that is in me to consider 
the challenges facing TVA and make sound and careful 
determinations.
    Based on my work, my life's experiences, and my knowledge 
of TVA, I believe I can make a valuable contribution to the 
Board of the Tennessee Valley Authority if you choose to 
confirm me.
    Throughout my professional life, I have worked with people 
from all walks of life. As a Board Member of Memphis Light, Gas 
& Water, TVA's largest single customer, I learned much about 
the challenges facing TVA as a power provider keeping pace with 
the exuberant growth of our region's economy.
    Thank you again for this opportunity, and I look forward to 
answering any questions you may have for me.
                                ------                                


     Responses by Bishop William H. Graves to Additional questions 
                         from Senator Jeffords

    Question 1. The new Energy Policy Act of 2005 encourages 
the development of distributed generation by allowing 
individuals to connect windmills or solar panels at their home 
to the grid and expanding combined heat and power projects by 
standardizing the interconnection process. Do you think this 
legislation should apply to the TVA?
    Response. I do not have enough information at this time to 
comment on the Energy Policy Act of 2005, but I am very 
interested in exploring the potential benefits of distributed 
generation to the Tennessee Valley. I Look forward to 
participating in theTVA Board's consideration of these 
standards if I am confirmed.

    Question 2. Would you support the TVA electing to 
voluntarily adopt further measure to increase energy-efficiency 
at its power generating facilities and among its rate payers, 
and increase the supply of electricity in the region?
    Response. Energy conservation, wherever it makes sense, is 
an important goal for TVA to take into account when considering 
the operations of its facilities. I have not yet had the 
opportunity to assess the potential for implementing greater 
energy conservation measures within TVA, but it is something I 
will look into if I'm confirmed.

    Question 3. Do you think that TVA, which has more than $24 
billion in debt, should take on additional debt to finance new 
power plants when private industry is willing to accept the 
financial risk of constructing new plants?
    Response. I have not been privy to details about TVA's debt 
or financing strategies, nor do I have information about the 
timeline for needing new generation. However, I believe TVA has 
a commitment to its customers to provide affordable and 
reliable power. If confirmed, I will use my position on the 
Board to make sure we are meeting the electricity needs of the 
Valley while working to keep costs low.

    Question 4. Do you feel the TVA should institute some kind 
of competitive bidding for new projects to ensure that the 
taxpayers of the Tennessee Valley region are paying the lowest 
possible price for their power, and that new generation is 
constructed in a cost-effective manner?
    Response. If confirmed, I will look into the way TVA makes 
investments in new projects. As I've mentioned, my experience 
in working with Memphis Light, Gas & Water, TVA's largest 
customer, has given me a unique perspective on how important it 
is for TVA's customers to have access to both affordable and 
reliable power. I would work to make sure TVA continues to meet 
this goal.

    Question 5. The effect of restructuring of the electric 
production and transmission industry in our country on the 
reliable delivery of electric power will continue with lessons 
learned form the blackout in New York, the California power 
crisis and reliability struggles elsewhere. TVA must continue 
its earnest efforts to ensure reliable power delivery. What 
else do you feel that TVA can be doing with neighboring 
utilities to ensure that we do not suffer additional regional 
blackouts?
    Response. I know how important electric reliability is to 
the people of the Southeast, especially for residents in the 
hot summer months and for industries located in the TVA region. 
I know this is something TVA has been involved in and that they 
continue to make efforts to increase the reliability of the 
power grid. At this point, I do not know specifically what else 
TVA can do with its neighboring utilities, but if confirmed to 
the Board I will make sure we have qualified people working 
closely on this issue.

    Question 6. What will you do to ensure that TVA 
aggressively reduces air pollution and aims to achieve at least 
1990 levels of carbon dioxide emissions?
    Response. If confirmed, I will support the ambitious 
efforts already in place by TVA to reduce air pollution as well 
as future efforts to make additional reductions. The reduction 
of emissions is a very important issue, which I plan to give 
serious consideration. From what I understand about these 
issues now, I think TVA's decision to add more nuclear and 
renewable energy generating capacity to its system is a prudent 
thing to do.

    Question 7. What will you do to ensure that TVA is being 
operated as a very efficient business so that financial 
resources are available to continue its investments in state-
of-the-art air pollution control technology?
    Response. If confirmed, I will carefully study TVA's 
business model and will work diligently to further the TVA 
goals of keeping costs low and keeping debt at appropriate 
levels so that we can support the efficient operations of our 
plants and continue to install pollution controls.

    Question 8. In addition to hydropower, what portion of 
TVA's generation base should come from renewable energy 
sources?
    Response. Unfortunately at this time, I do not have 
adequate information to be able to provide you with a 
percentage. I do support renewable energy sources and hope to 
make sure that TVA is doing its part for renewable energy if I 
am confirmed to the Board.

    Question 9. Do you support TVA's Green Power Switch 
program, which allows families and companies to voluntarily 
accept a small surcharge on their monthly bill in order to 
purchase blocks of electricity generated from renewable 
sources?
    Response. From what I know about TVA's Green Power Switch, 
I support the program. I do not have the details or the 
magnitude of this offering by TVA, but I think it is an 
important way in which we can help promote renewable energy.

    Question 10. TVA announced plans in 1997 to cut its debt in 
half by 2007 and increased rates for its distributors 
specifically in order to reduce its debt. TVA has acknowledged 
that it will not meet its debt reduction targets and is only on 
track to make a small dent in its overall debt. As part of the 
TVA board, do you plan to meet the original plan of reducing 
TVA's debt?
    Response. I have not had the opportunity to read this plan, 
so I cannot commit to supporting those goals. However, it is 
important that TVA keep its debt at a level that ensures the 
financial health of the Agency. If confirmed, I will work to 
make sure TVA is financially sound and that the rate payers are 
not at a financial risk.

    Question 11. TVA is an $8 billion entity. TVA charges 
higher electricity rates in some portions of the service 
territory. Would you, as a member of the TVA Board, seek to 
make uniform TVA customers' rates?
    Response. It is my understanding that TVA does charge 
uniform rates throughout the Valley. However, I will be glad to 
look further into this issue if I am confirmed.
                              ----------                              


       Statement of Alex Beehler, Nominee for Inspector General, 
                    Environmental Protection Agency

    Mr. Chairman, Senator Jeffords, members of the committee. 
Thank you for providing me with the opportunity to appear 
before you today. It is a great honor and privilege to be here 
today as the nominee to be Inspector General of the 
Environmental
    Protection Agency (EPA).
    In my current and previous positions involving 
environmental law and policy, my vision has been to seek 
environmental improvement. If I am confirmed, I pledge to you 
that I will do everything in my power to work with the 
dedicated expert staff in the Office of Inspector General to 
provide the Agency, Congress, and the American people, an 
independent, objective review of EPA programs. I will work to 
prevent and detect fraud, waste, and abuse in EPA programs, and 
to provide the leadership to promote effectiveness, efficiency, 
and economy in program administration. Each is an important 
component in assisting the Agency's mission of protecting human 
health and safeguarding the environment. And I pledge to work 
with the Committee and its staff in carrying out our shared 
goal of environmental protection and improvement.
    The legislation creating the Federal inspectors generally 
recognizes the importance of the audit and investigative 
functions to be carried out by the Office of Inspector General, 
and specified in the Act the appointment of personnel to 
oversee those operations. Likewise, Congress recognized the 
skills necessary for an effective Inspector General, and 
required a background in accounting, auditing, law, public 
administration or investigations.
    During my 28 years of professional experience in 
Washington, DC. I have had the privilege to spend 17 of those 
years engaged in environmental law enforcement and policy 
positions from several different perspectives. I have served as 
a special assistant to the Associate Administrator for Legal 
and Enforcement Counsel at EPA, as a Federal environmental 
prosecutor at the Department of Justice, as an environmental 
regulatory advisor to a major corporation, as the top 
environmental policy official at two non-profit organizations, 
and currently as a senior environmental official at the 
Department of Defense. These opportunities, plus positions on 
the Senate Judiciary Committee and in private litigation 
practice, have provided me with a wide range of legal, 
investigative, and Governmental experience that have prepared 
me to perform the critical role of helping protect human health 
and the environment as Inspector General of EPA.
    While at the Department of Justice, I was lead trial 
attorney on many CERCLA cost recovery cases requiring the 
substantive review of financial and audit records. One case in 
particular, the Picillo Superfund Site in Coventry, RI, 
involved the court appointment of a special master solely to 
address all accounting matters and the judicial rendering of 
one of the most comprehensive examinations of CERCLA cost 
recovery issues to date. The outcome of the litigation was 
highly favorable to the U.S. Government on several accounts: 
award to the Government of almost 100 percent of contested 
costs; validation of the Government's financial management of 
Superfund costs and strong precedential case law favoring the 
Government on cost recovery. My nonprofit work afforded me the 
opportunity to devise and implement environmental policy 
strategies focused on environmental improvement where 
substantive results were defined, measured, and emphasized. In 
my current capacity at the Department of Defense, I have 
continued to stress results over process by pushing for putting 
``facts on the table'', and collecting the best available data 
and science in a holistic, integrated manner for all the 
Department's operations--from design to disposal.
    In order to be effective, I have proactively pursued 
building trust with interested parties to encourage sharing of 
issues and information leading to solutions and environmental 
improvement. If confirmed, I would continue the same truth-
seeking approach as Inspector General, with independence and 
integrity. I would ferret out problems and target areas for 
improvement through proactively seeking knowledge from other 
internal EPA offices, from other Federal agencies and 
components, from State agencies, and from non-Government 
sources and entities. I would provide leadership through 
breadth of vision while drawing upon the considerable expertise 
of staff for depth and execution.
    Throughout my career and life, I have strived to use 
responsibilities entrusted to me to make things better - 
through independent and measured thinking, sound judgment and 
common sense, respect for the rule of law, with the highest 
ethical standards. I try to listen to all sides of an argument 
and respect the views of those with different perspectives, 
before making a judgment. My goal is to lead by example and 
learn from others. I hope to have that opportunity as EPA's 
Inspector General.
    Thank you, Mr. Chairman and members of the Committee. I 
would be happy to answer any questions that you may have.
                                ------                                


           Responses by Alex Beehler to Additional Questions 
                          from Senator Inhofe

    Question 1. In your past position with a non-profit 
organization, you had responsibility to ensure that the grants 
your organization awarded were properly funded, managed, and 
appropriately spent. How would this experience help the IG's 
office improve its oversight of grants management at EPA?
    Response. In my previous position, I was responsible for 
ensuring grant dollars were awarded and managed in a way that 
promoted maximum benefits for the dollars spent. The same goals 
apply to the billions of dollars EPA invests in grants each 
year. Many of the best practices I employed in my position at 
the non-profit are transferable to EPA grants. Past Office of 
Inspector General (OIG) work identified a number of weaknesses 
in EPA grants management, some of which I understand continue 
to exist. I look forward to using my expertise to contribute to 
EPA's initiative to improve grants management and ensure the 
American taxpayers dollars are well spent by EPA.

    Question 2. I understand that in your current position you 
are responsible for reviewing tens of millions of dollars in 
contracts for the Installation and Environment Division at 
Department of Defense. Do you see any of the criteria you use 
in these reviews as transferable to grants management oversight 
at EPA?
    Response. In my current position, I do not review 
individual contracts. I authorize the contracting agencies to 
contract for various products and services to support the 
functions of my office. In that role, I am responsible for 
ensuring that the products and services sought are necessary 
and useful and represent the most beneficial application of the 
taxpayers' resources provided to my office. In addition, I 
review and approve various grants, cooperative agreements, and 
interagency agreements to obtain products and services 
necessary to carry out the functions of the DoD in the area of 
environment, safety, and occupational health. In all these 
actions, I apply first and foremost the criteria that the 
expenditures will provide useful and valuable products for the 
taxpayers' funds. I anticipate that the criteria I have applied 
at DoD are just as applicable in other settings such as EPA.

    Question 3. As most here are aware, I have been very 
critical of how EPA prioritizes its spending requests. For 
example, every year, in order to say they have ``cut 
spending,'' EPA cuts the State revolving loan funds for water 
infrastructure, knowing that Congress will restore that money. 
These cuts to core programs with demonstrable environmental 
benefit occur, while certain small programs, with little to no 
benefit to the environment, go on completely funded. To your 
knowledge has EPA ever done a cost-benefit analysis of its 
various programs, including voluntary programs, research 
activities, and grants. Is this something that should be 
examined by the IG to determine where waste might be occurring?
    Response. To my knowledge, EPA has not conducted such a 
cost-benefit analysis. If confirmed, I plan to focus the OIG's 
work on helping ensure EPA uses data and measures to 
effectively manage its programs and resources.

    Question 4. In my opinion, the former EPA Inspector General 
produced a number of reports that not only were shoddily 
investigated, but demonstrated a clear motivation to achieve 
policy objectives that not only was she unqualified to judge. 
In particular, a report was issued criticizing EPA's mercury 
proposal process in which the IG's staff interviewed only the 
small number of Clean Air Act Advisory Committee members who 
disagreed with EPA's process and not one of the large majority 
of members who both attended the 13 days of meetings over 18 
months and supported the process. What will you do to rein in 
this kind of behavior on your staff?
    Response. It is critical that the EPA Inspector General 
demonstrate independence and objectivity to effectively help 
the Agency achieve its mission. While I cannot speak to the 
quality of the OIG work you cite, I can say that in the limited 
contact I have had with the OIG staff, I have been impressed 
with the professionalism and dedication to their mission. As 
IG, I will ensure only objective, balanced, and suitable facts 
are used to support OIG reports.

    Question 5. Mr. Beehler, the subject of the The National 
Academy of Sciences report on assessing the Human Health Risks 
of Trichloroethylene (TCE) and its recommendations was 
discussed at the hearing.It has been suggested that NAS found 
that the science is ``complete'' on this chemical and that the 
NAS report suggests that there is enough science to force 
companies and other parties to cleanup potential TCE 
contamination to an even greater degree.In its recommendations, 
however, the NAS Committee stated that while the ``evidence on 
carcinogenic risk and other health hazards from exposure to TCE 
has strengthened since 2001,'' the committee recommended ``that 
Federal agencies finalize their risk assessment with currently 
available data so that risk management decisions can be made.'' 
It does not appear to recommend cleanup levels or a particular 
course of action with respect to cleanup, but rather suggests 
that EPA finish its risk assessment.In fact, the report makes 
clear that ``the committee was not asked to address risk 
management issues.'' Is that correct?
    Response. Yes, that is correct.

    Question 6. Additionally, the report includes several 
research and methodological recommendations regarding exactly 
how EPA should conduct this risk assessment, including new 
epidemiologic data analysis, sensitivity analysis, dose-
response relationships, species differences and modes of 
action. If all this data analysis is yet to be complete, how 
can the science be considered ``decided''?
    Response. I agree that further data analysis must still be 
done before the science is considered ``decided.'' It is my 
understanding that EPA's Office of Research and Development 
(ORD) agrees too.The NAS report recommends that as part of 
doing an updated assessment, EPA should do a new meta-analysis 
of currently available epidemiology studies. It is my 
understanding that ORD plans to do an updated assessment for 
peer review based on currently available data.

    Question 7. Prior to serving at the DoD, you worked at Koch 
Industries as the Director of Environmental and Regulatory 
Affairs.You also were employed by the Charles G. Koch 
Foundation as Vice President for environmental programs. Koch 
Industries' record on the environment has included paying some 
of the largest civil fines ever imposed on a company under any 
Federal environmental law, and the filing of criminal charges 
for illegal releases of benzene in Texas, which were later 
settled with the Department of Justice for $20 million in 
penalties and a guilty plea for concealing information.
    Although you arrived at Koch after the company had been 
charged with these violations, the settlement of the criminal 
indictment occurred during your tenure as Director of 
Environmental Affairs.What role, if any, did you play in any 
environmental enforcement settlements during your tenure at 
Koch Industries?
    Response. None.

    Question 8. If confirmed as Inspector General, would you 
plan on recusing yourself from investigating matters relating 
to Koch industries?
    Response. Yes.

    Question 9. If not, how would you plan on avoiding any 
appearance of impropriety or bias?
    Response. Not applicable.

    Question 10. With regard to your work as Director of 
Environmental Programs for the Charles G. Koch Foundation, we 
understand that during your tenure the foundation provided 
funding to a number of organizations such as the Mercatus 
Institute, among others, that are actively involved in debates 
regarding environmental regulations.
    Please provide a detailed description of the organizations 
or projects that the foundation funded or helped to fund that 
take positions or provide analysis regarding environmental 
protection laws. Please summarize the work product, or reports 
or other analysis that were funded during your tenure.
    Response. During my tenure, the Charles G. Koch Foundation 
(Foundation) was involved in extensive grant making in a wide 
range of fields with which I had no knowledge or involvement. 
To the best of my recollection, the relevant grants thatI was 
involved with included regarding an analysis of EPA's 
permitting processes. This grant was provided to Resources for 
the Future. A second grant is one that involved Harvard 
University in conjunction with Resources for the Future, EPA 
and the American Chemistry Council. This grant analyzed lessons 
learned and successes shared toward better environmental 
management and improvement.

    Question 11. Your financial documents indicate that you 
have investments in a number of companies that could be 
directly affected by EPA regulations or enforcement actions. 
These include major manufacturing companies that have 
previously been subject to EPA enforcement actions, energy 
companies and mining companies. I understand you have elected 
not to divest yourself of these investments but rather to 
manage any potential conflicts of interest by recusing yourself 
from all matters that have a direct and predictable effect on 
your financial interests or by seeking a written waiver.
    Given the scope of environmental statutes that the EPA 
administers and the breadth of regulatory and enforcement 
actions it takes, how do you plan on evaluating all of your 
work for potential conflicts of interest?
    Response. In keeping with the terms of the ethics letter I 
signed on Aug. 3, 2006, I will issue a recusal statement that 
clearly sets forth the names of the companies from which I 
would be recused. I will remain vigilant with respect to my 
potential conflicts of interest and appearance concerns. I will 
consult the OIG's Counsel and/or the Agency's ethics officials, 
as appropriate. In addition, I will rely upon the career senior 
managers in the OIG to assist me in abiding by the terms of my 
ethics agreement and my recusals.

    Question 12. Will this place a resource burden on the 
Office of Inspector General and the EPA ethics staff to screen 
all your work against the backdrop of your investments? If not, 
please detail how you will manage the Inspector General Office 
resources to avoid this.
    Response. The burden of remaining vigilant about my own 
recusals remains with me, as I am responsible for ensuring that 
I understand and abide by the Federal ethics standards. OIG 
Counsel assures me that he does not believe that my ethics 
considerations will create an undue burden on his workload.

    Question 13. How will you make strategic decisions for the 
Office of the Inspector General that relate to allocating 
scarce audit and investigation resources among different 
industry sectors, some of which may include companies that you 
maintain investments in?
    Response. The OIG does not normally allocate resources 
against industries. Resources are allocated based on customer 
(both internal and external) requests, potential monetary and 
environmental/health benefits or risk, and within the scope of 
the IG's authority. Resource allocation and work decisions are 
not made based on the IG's personal likes or preferences, but 
rather on the mission of EPA and the OIG.

    Question 14. How would you handle a recommendation by the 
Inspector General staff that you institute an investigation of 
the EPA's enforcement actions related to energy companies?
    Response. I have been advised by OIG Counsel and EPA's 
ethics officials that I am not automatically recused from 
matters of general applicability involving energy companies. 
However, I would recuse myself from any matters in which I 
could not be objective, or perceived as being objective, 
whether they are due to a financial interest or my previous 
work. In such case, the work of OIG would continue to be 
handled by the experienced career executives of OIG.

    Question 15. In your view, would a recommendation, given by 
you, to investigate EPA enforcement activities related to a 
different industrial sector in which you do not have 
investments, also pose a conflict of interest, given the 
limited amount of investigation resources available to the 
Inspector General? If not, please explain why and be specific.
    Response. No, I do not believe that there would be any 
conflict of interest if I were to recommend OIG action with 
respect to an industry in which I do not have any financial 
interest. The term "financial interest" is defined in the 
Standards of Ethical Conduct for Employees of the Executive 
Branch as limited to financial interests that are held by an 
employee, his spouse or minor children. (5 CFR 2635.403(c)).
    However, if I could not be objective, or be perceived as 
being objective, whether the reasons are due to a financial 
interest or my previous work, I would recuse myself from the 
matter before me. In such case, the work of OIG would continue 
to be handled by the experienced career executives of OIG.

    Question 16. If during the course of your work as Inspector 
General, you are provided, either orally or in writing, with 
confidential enforcement information related to any company 
that you have investments in, how would you plan on making 
future investment decisions related to such a company, 
particularly decisions to divest or reduce your investments in 
such a company?
    Response. EPA's Office of Enforcement and Compliance 
handles enforcement matters for the Agency, not the OIG. As the 
IG, it would be highly unusual for such information to come to 
my attention. If it did, I would not involve myself in the 
matter nor would I use such information to make personal 
financial decisions. In the event that I am provided 
information related to a company identified on my recusal list, 
I would notify OIG Counsel and adhere to his advice on how to 
proceed. I would refrain from reading the information because I 
would be recused.

    Question 17. Did you invest in these sectors and/or 
companies while employed at DoD? How did you avoid conflicts of 
interest arising with your investments in these companies or 
other companies with financial relationships with DoD?
    Response. These investments were made prior to my 
employment at DoD. I relied on counsel of DoD General Counsel's 
ethics office for guidance on avoiding conflicts of interests.
                                ------                                


           Responses by Alex Beehler to Additional Questions 
                         from Senator Lieberman

    Question 1a. Are you planning, in the event that you become 
EPA's Inspector General, to recuse yourself from any decisions 
concerning any IG investigation, inquiry, audit, or report 
touching upon EPA's reaction either to any Defense Department 
request for changes to the statutes that EPA implements or to 
any Defense Department request for particular EPA action or 
inaction?
    Response. In addition to recusing myself from any matter 
concerning exemptions sought by the DoD under the environmental 
laws, such as the Clean Air Act, RCRA and Superfund for so 
called ``readiness activities,'' I will also recuse myself from 
any matters in which I could not be objective, or be perceived 
as being objective, whether due to a financial interest or my 
previous work.

    Question 1b. If so, then what assurances can you provide me 
now that other employees of the Inspector General's office 
would have adequate legal authority and practical ability to 
initiate and effectively complete such an investigation, 
inquiry, audit, or report?
    Response. Under this circumstance, I will delegate all 
powers and authorities granted to be under the Inspector 
General of 1978, as amended or any other authority to the OIG 
official designated to handle the matter.

    Question 1c. If not, then why not, considering the concerns 
expressed in the opening statement that I submitted to the 
record of your confirmation hearing?
    Response. Not applicable.

    Question 2. The Inspector General Act empowers and directs 
EPA's inspector general to keep the Congress fully informed of, 
among other things, ``serious problems . . . and deficiencies 
relating to the administration of programs and operations 
administered'' by EPA. Please describe the principles and 
factors that will guide you, if you are confirmed to the post 
of EPA's inspector general, in determining whether individual 
controversial policy decisions made by EPA officials qualify as 
or reveal ``serious problems'' or ``deficiencies,'' as those 
terms are used in the Inspector General Act.
    Response. The principles and factors would be those matters 
which implicate fraud, waste, abuse, mismanagement or 
inefficiency relating to EPA's program and operations. 
Additionally, I would consider the level of risk involved, the 
amount of potential monetary costs or recovery involved, and 
the importance of an issue to Congress, the Agency and the 
public in developing OIG work assignments. The OIG formally 
reports to Congress semiannually on the activities undertaken, 
and the results of their work.
                                ------                                


           Responses by Alex Beehler to Additional Questions 
                        from Senator Lautenberg

    Question 1. During your tenure, the Department of Defense 
(DoD) has sought exemptions from the Clean Air Act, Clean Water 
Act, Superfund and other environmental laws. If you are 
confirmed as Inspector General, would you continue to advocate 
for DoD to be exempt from laws administered by the EPA?
    Response. No. Under the IG Act, IGs are strictly prohibited 
from engaging in programmatic work and I will abide by the IG 
Act. Specifically, any decision I make as IG will be based upon 
my responsibilities as the IG and not on my previous work 
experiences.

    Question 2. While at the Defense Department, you opposed 
EPA's revised risk assessment for the chemical 
trichloroethylene (TCE). If you are confirmed as Inspector 
General, and EPA decides to move forward with a revised risk 
assessment, or a strengthened drinking water standard for TCE, 
will you oppose EPA's efforts?
    Response. See above. Policy deliberations and decisions are 
programmatic activities and are expressly prohibited under the 
IG Act.

    Question 3. As you know, The National Research Council 
(NRC) was ultimately called upon to study the issue of TCE. In 
July, the NRC essentially confirmed EPA's view that a revised 
risk assessment for TCE was in order. Has your view of the 
matter changed in any way based upon the NRC report?
    Response. EPA, DoD, and DoE together sought the NRC review 
to analyze the science upon which the EPA draft risk assessment 
was based. The NRC brought certain matters into question and 
the EPA has taken that additional information to apply in 
improving its risk assessment.
                                ------                                


           Responses by Alex Beehler to Additional Questions 
                         from Senator Jeffords

    Question 1. The EPA Inspector General's duty is to serve as 
an independent, impartial and accountable source for audits, 
evaluations and, investigations of EPA. The Inspector General 
functions as a ``watchdog'' in alerting the public and Congress 
to areas of concern at EPA. Your predecessor showed admirable 
independence in producing important reports that were critical 
of the EPA in the areas of mercury control, New Source Review 
and EPA's evaluation of air quality after the World Trade 
Center attacks.
    What about your record makes clear that you are willing to 
take EPA to task for not fulfilling its public health 
responsibilities under the environmental laws? How does your 
record demonstrate the qualities of independent thought and 
communication that are required of an Inspector General?
    Response. During my extensive work experience in positions 
involving environmental law and policy, I have sought 
environmental improvement. Much of my professional experience 
has been spent enforcing our nation's environmental laws. I was 
a prosecutor at the Department of Justice for 10 years. 
Prosecuting cases is a similar process: you collect the facts; 
build a case; and present your findings. It is like evaluating 
any organization concerning its operational decisions and 
actions.

    Question 2. During your time at the Department of Defense 
(DoD), you have advocated that the Defense Department be 
exempted from the major environmental statutes, including the 
Clean Air Act, Superfund, the Clean Water Act and the Resource 
Conservation and Recovery Act. Were these exemptions designed 
in any way to improve or enhance environmental protection? 
Would they have increased or decreased environmental oversight 
by EPA and the States?
    Response. The overwhelming focus (more than 95 percent) of 
my time and effort at DoD has been spent on program 
administration and outreach to States, localities, tribes, non-
Governmental organizations (NGOs), and other stakeholders--not 
the legislative proposals known as the Range and Readiness 
Preservation Initiative, which were developed and adopted by 
DoD and the Administration two years before I joined DoD.
    As explained to me, these legislative proposals were simply 
designed to codify the existing regulatory policies and 
practices of DoD, EPA, and the State regulators--policies 
maintained under Federal and State administrations of both 
parties, including the previous Administration--which were, 
however, being challenged in various lawsuits.
    These proposals were therefore not intended to increase or 
decrease EPA and State environmental oversight. These proposals 
were designed to either have neutral or positive environmental 
consequences.
                                ------                                


           Responses by Alex Beehler to Additional Questions 
                           from Senator Boxer

    Question 1. Mr. Beehler: You currently serve as Assistant 
Deputy Undersecretary of Defense for Environment, Safety and 
Occupational Health.During your tenure in that position, the 
Department of Defense has repeatedly sought exemptions under 
the environmental laws, such as the Clean Air Act, RCRA and 
Superfund for so called "readiness activities" and you have 
publicly advocated for such exemptions. However, the record has 
shown that military readiness has not been impacted by 
environmental requirements and that DoD rarely, if ever, has 
used exemptions already available to it under existing 
regulatory provisions.
    If confirmed, do you plan on recusing yourself from issues 
related to these exemptions in light of your previous advocacy 
for them?
    Response. Yes.

    Question 2. If not, will you integrate these views into 
Inspector General Reports on EPA matters where these views may 
be relevant?
    Response. Not applicable.

    Question 3. Do you disagree in any way with former EPA 
Administrator Christine Todd Whitman's testimony before the 
Senate Environment and Public Works Committee stating that ``I 
do not believe there is a training session anywhere in the 
country that is being held up or not taking place because of 
environmental regulation.'' February 26, 2003). If yes, please 
be specific in your response.
    Response. It has been reported to me by DoD that there is 
at least one situation where training has been restricted at 
the Massachusetts Military Reservation, Camp Edwards, due to 
Administrative Order No. 2 issued by EPA in April 1997 pursuant 
to the Safe Drinking Water Act. That order relates to munitions 
constituents in a sole source drinking water aquifer.

    Question 4. On April 21, 2004, DoD Deputy General Counsel 
Ben Cohen indicated in testimony before the House Energy and 
Commerce Committee that in response to a request from Deputy 
Secretary Paul Wolfowitz, no branch of the DoD had submitted 
any information that warranted using the existing national 
security exemptions under CERCLA,RCRA or the Clean Air 
Act.After that testimony I understand you continued to publicly 
advocate for such exemptions.
    What was your factual basis at that time for continuing to 
advocate for these exemptions in light of the prior testimony 
of Administrator Whitman and Mr. Cohen on these subjects?
    Response. I have been advised that Mr. Cohen's testimony 
referred to existing exemptions in various environmental 
statutes, not to the legislative proposals that DoD was 
advocating.
    My overwhelming focus, more than 95 percent of my time and 
effort, has been spent on program administration and outreach 
to States, localities, tribes, NGOs, and other stakeholders--
not these legislative proposals, which were developed and 
adopted by DoD and the Administration two years before I joined 
DoD.
    As these proposals have been explained to me, these 
legislative proposals were simply designed to codify the 
existing regulatory policies and practices of DoD, EPA, and the 
State regulators--policies maintained under Federal and State 
administrations of both parties, including the previous 
Administration--which were, however, being challenged in 
various lawsuits.
    These proposals were therefore not intended to increase or 
decrease EPA and State environmental oversight. These proposals 
were designed to either have neutral or positive environmental 
consequences.
  

                                  <all>

</pre></body></html>
